APPENDIX 1
Appellate Case: 17-3144 Document: 01019934011 Date
Filed: 01/22/2018 Page: 1
UNITED STATES COURT OF APPEALS FOR THE
TENTH CIRCUIT
No. 17-3143
(D.C. No. 5:i5-CV-04961JOREL SHOPHAR,
DDC-KGS)
Plaintiff - Appellant, (D. Kan.)
v.
CITY OF OLATHE; SAFE HOME OF
KANSAS; LAYNE PROJECT; KVC
KANSAS; ASHLYN YARNELL,
FILED
United
States Court of
Defendants - Appellees.
Appeals
Tenth Circuit
January 22, 2018
Elisabeth A. Shumaker
Clerk of Court

JOREL SHOPHAR,
Plaintiff - Appellant,
v.

No. 17-3144
(D.C. No. 5:i6-CV-04043DDC-KGS)
(D. Kan.)

STATE OF KANSAS; KANSAS DEPARTMENT
FOR

CHILDREN

AND

FAMILIES;

AUDRA

WEAVER; KRISSY GORSKI; TEENA WILKIE;
MOMS
CLUB; MOMS CLUB OF OLATHE EAST,
Defendants - Appellees.
ORDER AND JUDGMENT*

57

* After examining the briefs and appellate record, this panel
has determined unanimously that oral argument would not
materially assist in the determination of this appeal. See Fed.
R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and
judgment is not binding precedent, except under the doctrines
of law of the case, res judicata, and collateral
(continued)

Before BALDOCK, KELLY, and O’BRIEN, Circuit
Judges.

After Krissy Gorski took the children and
made her exodus from the family home she shared
with Jorel Shophar a child custody dispute ensued.
These cases found their genesis in that dispute!
Shophar is unhappy with the manner in which
various actors handled child custody matters and
brought these cases to correct the wrongs he
perceives. His complaints allege violations of various
state and federal statutes. The precise issue
presented here concerns the legal sufficiency of
Shophar’s

pleadings.

Since

the

district

judge

appropriately dealt with the legal issues, we affirm

58

the dismissals of Shophar’s complaints; we do so for
substantially the reasons announced in the four
comprehensive and cogent orders addressing the
issue.
BACKGROUND1
In August 2015, Gorski took the couple’s two
children from the family home in Kansas and went
to a domestic-abuse shelter known as Safe Home.
Shophar contacted

estoppel. It may be cited, however, for its persuasive value
consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

xThe following factual background is synthesized from
the numerous convoluted allegations asserted throughout
Shophar’s federal court pleadings. At the motion to dismiss
stage, the veracity of factual allegations is not at issue even if
the allegations are “unrealistic or nonsensical,” “chimerical,” or
“extravagantly fanciful.” Ashcroft v. Iqbal, 556 U.S. 662, 679,
681

(2009). “It is the conclusory nature of [Shophar’s]

allegations, rather than their extravagantly fanciful nature,
that disentitles them to the presumption of truth.” Id. at 681.

MOMS Club (a support group for stay-athome mothers), the Olathe Police Department, and

59

the Kansas Department for Children and Families
(DCF),

but

they

all

refused

to

disclose

the

whereabouts of Gorski and the children.
DCF then began investigating Shophar for
domestic abuse. He denied the allegations and
accused Gorski of prostitution,

drug use,

and

extortion.
In September 2015, the children were placed
in state custody pending further investigation. At
some point, DCF placed the children with Teena
Wilkie (a member of MOMS Club). Ashlyn Yarnell
was appointed as the children’s guardian ad litem.
Throughout this time, Shophar was allowed to
see his children at Layne Project, a child advocacy
group that offers supervised parental visits.

I. Appeal No. 17-3143
In November 2015, Shophar filed a pro se
federal lawsuit against the City of Olathe, Safe
Home, Layne Project, KVC Kansas (a private child
welfare/healthcare organization), and Yarnell. He
alleged the defendants were indifferent to Gorski’s
criminal activities and her manipulation of the child-

60

custody proceedings. He further claimed they had
negligently

cared

for

his

children

and

had

discriminated against him in violation of “the
Biblical laws and . . . the State laws.” Compl. 4, ECF
No. 1-1. All defendants moved to dismiss.
Shophar was permitted to amend his complaint,
which he did in October 2016, adding considerable detail to
his allegations about Gorski’s criminal conduct and the
defendants’ involvement therein. The focal point of his
allegations remained the defendants’ support of Gorski. He
claimed violations of 42 U.S.C. § 1983 (with respect to the
First, Fourth, Sixth, and Fourteenth Amendments);
42 U.S.C. § 1985(3) (conspiracy to deprive equalprotection rights); 18 U.S.C. § 1029 (fraud in
connection with access devices); and Kan. Stat. Ann.
§ 38-141 (providing a civil cause of action in support
of parental rights). The defendants again moved to
dismiss. This time, the district court granted the
motions and entered judgment against Shophar. He
appeals to this court for relief.

61

II. Appeal No. 17-3144
Meanwhile, in April 2016, Shophar filed another pro
se federal suit based on similar allegations, but this
time he named as defendants the State of Kansas
and DCF. In a lengthy, prolix complaint, he repeated
his drug use and prostitution allegations against
Gorski and he added the history of the church he
had founded, his “private investigation on drug
distribution in the State of Michigan,” and his “plan
to open a rehabilitation center” in Kansas with
Gorski. Compl. 3, ECF No. 1. When the defendants
moved to dismiss, the district judge allowed Shophar
to amend his complaint.
In a July 2016 amended complaint, he
expanded the list of defendants to include Gorski;
Wilkie; MOMS Club; MOMS Club of Olathe East; and
Audra Weaver. Motions to dismiss again ensued, and he
was afforded yet another opportunity to amend.
In a December 2016 second-amended complaint,
he elaborated on his allegations, providing a rambling
narrative of the custody events, interwoven with his
concern for “problems facing the inner cities”; his desire
“to help the feeble, and the broken, and the fatherless”;

62

!:

i

and his determination to expose the alleged criminal
behavior of Gorski and the named others. Am. Compl.
1, ECF No. 90. He asserted violations of 42 U.S.C.§
1983 (in regard to the First, Fourth, and Fourteenth
Amendments); 42 U.S.C. § 1985(3) (conspiracy to
deprive equal-protection rights); 18 U.S.C. § 242
(criminal deprivation of constitutional rights); 18 U.S.C.
§ 1038 (conveying false information in violation of
criminal laws); 8 U.S.C. § 1324c (document fraud in
immigration cases); 42 U.S.C. §12203 (retaliation for
opposing disability discrimination); Kan. Stat. Ann. §
21-6103(criminal false communications); Kan. Stat.
Ann. § 21-5601 (criminal child endangerment); and
Kan. Stat. Ann. § 38-2223(e) (criminal failure to report
child abuse).
Prompted by another round of motions to
dismiss, the district judge entered judgment against
Shophar in June 2017. He again appeals to this court for
relief.

63

assertion^] of error,” devoid of any “citations to the
authorities and parts of the record on which [he] relies.”
Garrett v. Selby ConnorMaddux & Janer, 425 F.3d 836,
840-41 (10th Cir. 2005). For instance, he “questions the
concern the [district] [c]ourt had for the children,” and he
asserts the dismissals were contrary to “Biblical law”
because the defendants were able to “avoid answeringf ] or
controverting with their side of the events.” Aplt. Opening
Br (No. 17-3143) at 5, 6; id.(No. 17-3144) at 5, 6. Further, he
contends he “submitted clear evidence that the mother of his
children falsely accused him of domestic [violence] and
child abuse.” Id.(No. 17-3143) at 7; id. (No. 17-3144) at 6.
These assertions “are wholly inadequate to preserve issues
for review.” Garrett, 425 F.3d at 840.
Despite Shophar’s pro se status, we cannot serve as
his advocate, searching the record and fashioning legal
arguments for him. Garrett, 425 F.3d at 840. “[I]t is the
appellant’s responsibility to tie the salient facts, supported by
specific record citation, tohis legal contentions.” United
States v. Rodriguez-Aguirre, 108 F.3d 1228, 1237 n.8 (10th
Cir. 1997) (brackets and internal quotation marks omitted).
Nevertheless, we have exercised our discretion to
review the record and the applicable law, see Garrett, 425
F.3d at 841, and see no error in the dismissals of Shophar’s

65

complaints. The judge gave Shophar ample opportunities to
make plausible claims, which he failed to do.

CONCLUSION
We affirm the orders dismissing Shophar’s
complaints.

Entered for the Court

Terrence L. O’Brien
Circuit Judge

66

APPENDIX 5
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
JOREL SHOPHAR,
Plaintiff,
v.
Case No. 15CV-4961DDCKGS
CITY OF OLATHE, et al.,
Defendants.
MEMORANDUM AND ORDER
This lawsuit arises from a child custody
dispute between plaintiff Jorel Shophar and a nonparty, Krissy Gorski, the mother of two of plaintiffs
children. Plaintiff alleges that Ms. Gorski—hoping to
terminate plaintiffs parental rights and extort
money from others—has “contrived a false campaign
of abuse against” him. Doc. 70 at 1. Plaintiff brings
this lawsuit pro se against five defendants whom he
accuses of helping Ms. Gorski contrive her false
abuse claims and her attempts to terminate
plaintiffs

parental

rights.

The

five

named

defendants are: (l) the City of Olathe (“Olathe”); (2)

73

Safehome, Inc.; (3) The Layne Project, Inc.; (4) KVC
Kansas! and (5) Ashlyn Yarnell.
All five

defendants previously moved to

dismiss plaintiffs Complaint under Fed. R. Civ. P.
12(b)(1) for lack of subject matter jurisdiction and
Fed. R. Civ. P. 12(b)(6) for failing to state a claim for
relief. At the same time, plaintiff asked the court for
leave

to file

an Amended Complaint.

Several

defendants opposed plaintiffs Motion for Leave,
arguing that plaintiffs proposed amendments were
futile. In a September 13, 2016 Memorandum and
Order, the court agreed with defendants, finding
plaintiffs proposed Amended Complaint was futile
because it still failed to state viable claims against
some of the defendants. Doc. 65 at 13. Nevertheless
he court granted plaintiff leave to file an Amended
Complaint. Id. But, the court cautioned plaintiff“[T]he court allows plaintiff one final opportunity to
file an Amended Complaint—one that addresses all of
the concerns raised by the court in this Order.
Specifically, plaintiff must plead facts—and not just
conclusions—to state plausible claims and cure the
deficiencies identified [in the court’s Order].” Id.

74

On October
Amended

12,

Complaint.

2016,
Doc.

plaintiff filed his
70.

Like

plaintiffs

original Complaint, the Amended Complaint is
difficult to understand. But, plaintiff appears to
allege, generally, that defendants discriminated
against him and violated his constitutional rights.
Plaintiff asserts his amended claims under 42 U.S.C.
§§ 1983 & 1985, 18 U.S.C. § 1028, and Kan. Stat.
Ann. §§ 38-141 & 38‘223(e).
All five defendants have filed Motions to
Dismiss the Amended Complaint invoking Fed. R.
Civ. P. 12(b)(1) and 12(b)(6). Docs. 77, 79, 84, 86, 88.
Plaintiff has responded to all five motions. Docs. 90,
91, 92, 97, 101. And, defendants have submitted
Replies. Docs. 93, 94, 95, 99, 102. After considering
the parties’ arguments, the court grants defendants’
motions to dismiss because either the court lacks
subject matter jurisdiction over plaintiffs claims or
plaintiffs claims fail to state plausible claims for
relief. The court explains the reasons for its rulings
below.

I. Factual Background

75

following facts are taken from plaintiffs
Amended Complaint (Doc. 70), accepted as true, and
viewed in the light most favorable to plaintiff. 1
Plaintiff and a woman named Krissy

1 ASARCO LLC v. Union Pac. R.R. Co., 755 F.3d 1183, 1188 (10th Cir.
2014) (explaining that, on a Fed. R. Civ. P. 12(b)(6) motion to dismiss,
the court must “accept as true all well-pleaded factual allegations in
the complaint and view them in the light most favorable to the
[plaintiff].” (citation and internal quotation marks omitted)). The court
also construes plaintiffs allegations liberally because he proceeds pro
se. See Hall v. Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991)
(explaining that courts must construe pro se filings liberally and hold
them to a less stringent standard than formal pleadings drafted

Gorski had two children together. Plaintiff accuses
Ms. Gorski of abusing pain killer medication starting
in 2015. Plaintiff alleges that Ms. Gorski’s drug
abuse has caused her to behave erratically and harm
their children. On August 8, 2015, plaintiff says he
“made plans to file for paternity” of the two children.
Doc. 70 at 1. But, on August 12, 2015, Ms. Gorski
took the children away from plaintiff. Ms. Gorski
also reported that plaintiff was abusing her and the
children physically to various agencies, including the

76

Olathe Police Department, the Johnson County
District Court, the Department for Children and
Families (“DCF”), and Safe home. Plaintiff asserts
that Ms. Gorski’s abuse claims are false.
On August 12, 2015, plaintiff contacted the
Olathe Police Department to report that his children
were missing and that Ms. Gorski was abusing pain
killers. Plaintiff spoke to an officer who reported that
Ms. Gorski already had contacted the Olathe Police
Department to make an abuse complaint against
plaintiff. The officer told plaintiff that he could do
nothing for plaintiff. Later that day, a friend of Ms.
Gorski s came to plaintiffs home

seeking Ms.

Gorski’s pain killer medication. When plaintiffs wife
refused to give the friend the pain killers, the friend
called the Olathe Police Department. An officer
arrived at the home and demanded that Ms.
Shophar
provide the medication, even though both plaintiff
and Ms. Shophar told the officer that Ms. Gorski was
abusing the medication as well as her children.
Plaintiff alleges

that

the

Olathe

Police

Department refused to tell him where his children

77

were located, prohibited him from filing a police
report against Ms. Gorski, ignored his complaints
about

Ms.

Gorski’s

drug

abuse

and

child

endangerment, and improperly investigated Ms.
Gorski’s

false

abuse

allegations

against

him.

Plaintiff alleges that the Olathe Police

by lawyers). But, when applying this standard, the court does
not become the pro se litigant’s advocate. Id. Also, a litigant’s
pro se status does not excuse him from complying with the
court’s rules or facing the consequences of his noncompliance.
Ogden v. San Juan Cty., 32 F.3d 452, 455 (10th Cir. 1994)
(citing Nielsen v. Price, 17 F.3d 1276, 1277 (10th Cir. 1994)).

Department discriminated against him because of
his gender thus allowing the children’s mother to
report her abuse allegations. The Olathe Police
Department nonetheless investigated Ms. Gorski’s
allegations and prohibited plaintiff (as the father)
from asserting his abuse allegations against Ms.
Gorski.
Although the Amended Complaint does not
explain this clearly, it appears that a Child in

78

Need of Care (“CINC”) case was initiated in the
District Court of Johnson County, Kansas for
plaintiffs two children. Also, Ms. Gorski filed her
own lawsuit in Johnson County, Kansas, seeking an
order of Protection from Abuse against plaintiff.
Plaintiff accuses all five defendants of helping Ms.
Gorski to contrive her false abuse allegations so that
plaintiff would lose his parental rights to the two
children during the legal proceedings in Johnson
County, Kansas.
Plaintiff alleges that Safehome—a shelter for
victims of domestic violence—placed his children at
its shelter without his consent. Plaintiff contends
that Safehome documented the false allegations of
abuse against him without evidence and provided
therapy to his children without his consent. Plaintiff
also alleges that Safehome ignored his complaints
that Ms. Gorski was abusing drugs, abusing the
children, and engaging in prostitution. Plaintiff
contends that Safehome covered up Ms. Gorski’s
illegal activities, instructed her to file false abuse
allegations against plaintiff, and conspired with DCF

79

and KVC Kansas to move Ms. Gorski to a new
residence.
Plaintiff

alleges

that

Layne

Project—an

organization who provides family services such
as

supervised parental visitation—discriminated

against him because it forced him to pay for services
but did not charge Ms. Gorski for services. Plaintiff
also accuses Layne Project of documenting the false
allegations of abuse against him while ignoring his
complaints that Ms. Gorski was abusing drugs and
the children and engaging in other criminal activity.
Plaintiff contends that Layne Project prohibited him
from disciplining his children and prevented one of
plaintiffs other children from visiting the two
children that were involved in the CINC case.
Plaintiff alleges that KVC Kansas placed the
children in the home of Ms. Gorski’s friend—
someone who is an unlicensed foster parent and who
helped Ms. Gorski abuse drugs by supplying her
pain killers. Plaintiff contends that KVC Kansas
never spoke with him about the placement and never
provided him the chance to object to it. Plaintiff also
alleges that KVC Kansas documented Ms. Gorski’s

80

false abuse allegations while ignoring evidence that
Ms. Gorski had contrived them. He also contends
that KVC Kansas ignored his complaints that Ms.
Gorski was abusing the children, abusing drugs, and
involved with prostitution. Plaintiff accuses KVC
Kansas of preventing him from visiting his children,
ignoring his phone calls, withholding the case plan
from him, lying to the Johnson County District
Court about plaintiffs neglect of his children, and
conspiring to terminate his parental rights.
Plaintiffs

allegations

against

defendant

Ashlyn Yarnell—the guardian ad litem appointed
to represent the two children—claim that she failed
to conduct a thorough investigation of Ms. Gorski’s
false abuse claims. Plaintiff contends that Ms.
Yarnell spoke only to Ms. Gorski about the abuse
allegations and ignored evidence showing that Ms.
Gorski had contrived them. Plaintiff also alleges that
Ms. Yarnell ignored his complaints about Ms.
Gorski’s

unlawful

activity,

wrongfully

charged

plaintiff with neglect, prevented him from seeing his
children, and expressed personal disapproval of
plaintiffs religious beliefs. Plaintiff accuses Ms.

81

Yarnell of providing false information to the Johnson
County District Court about Ms. Gorski’s visitation
with the children and about his fitness as a parent.
Also,

he

contends

that

Ms.

Yarnell withheld

information from the District Court about Ms.
Gorski’s false abuse allegations and prostitution.
Plaintiff alleges

that

defendants’

actions

wrongfully have deprived him of his children and
have caused him humiliation and severe emotional
distress. Plaintiff also contends that defendants’
actions have allowed Ms. Gorski to expose his
children to criminal activity and to subject them to
physical abuse and emotional distress while in her
care. Plaintiff seeks just one form of relief against
defendants^ money damages. He asks the court to
award special, general, and punitive damages of
$350,000 against each defendant. Doc. 70 at 24.
II. Legal Standard
A. Rule 12(b)(1) Motion to Dismiss for Lack of
Subject Matter Jurisdiction
“Federal courts are courts of limited jurisdiction and,
as such, must have a statutory basis to exercise
jurisdiction.” Montoya v. Chao, 296 F.3d 952, 955

82

(10th Cir. 2002) (citation omitted). Federal district
courts have original jurisdiction of all civil actions
arising under the constitution, laws, or treaties of
the United States or where there is diversity of
citizenship. 28 U.S.C. § 1331; 28 U.S.C. § 1332. “A
court lacking jurisdiction cannot render judgment
but must dismiss the cause at any stage of the
proceedings in which it becomes apparent that
jurisdiction is lacking.” Basso v. Utah Power & Light
Co., 495 F.2d 906, 909 (10th Cir. 1974) (citation
omitted). Since federal courts are courts of limited
jurisdiction, there
jurisdiction, and

is
the

a

presumption against

party

invoking

federal

jurisdiction bears the burden to prove it exists.
Kokkonen v. Guardian Life Ins. Co. ofAm., 511 U.S.
375, 377 (1994).
Generally, a motion to dismiss for lack of
subject matter jurisdiction under Fed. R. Civ. P.
12(b)(1) takes one of two forms: a facial attack or a
factual attack. Holt v. United States, 46 F.3d 1000,
1002 (10th Cir. 1995). “First, a facial attack on the
complaint’s

allegations

jurisdiction

questions

as
the

83

to

subject

matter

sufficiency of

the

complaint. In reviewing a facial attack on the
complaint,

a

district

court

must

accept

the

allegations in the complaint as true.” Id.
(citing Ohio Nat’l Life Ins. Co. v. United States, 922
F.2d 320, 325 (6th Cir. 1990)) (internal
citations omitted).
“Second, a party may go beyond allegations
contained in the complaint and challenge the
facts

upon

which

subject

matter

jurisdiction

depends. When reviewing a factual attack on subject
matter jurisdiction, a district court may not presume
the

truthfulness

of

the

complaint’s

factual

allegations. A court has wide discretion to allow
affidavits, other documents, and [to conduct] a
limited evidentiary hearing to resolve disputed
jurisdictional facts under Rule 12(b)(1).” Id. at 1003
(citations omitted); Los Alamos Study Grp. v. U.S.
Dep’t of Energy, 692 F.3d 1057, 1063-64 (10th Cir.
2012); see also Sizova v. Nat’l Inst, of Standards &
Tech., 282 F.3d 1320, 1324-25 (10th Cir. 2002)
(holding that a court must convert a motion to
dismiss to a motion for summary judgment under

84

Fed. R. Civ. P. 56 only when the jurisdictional
question is intertwined with the case’s merits).
B. Rule 12(b)(6) Motion to Dismiss for Failure
to State a Claim
Fed. R. Civ. P. 8(a)(2) provides that a complaint
must contain “a short and plain statement of the
claim showing that the pleader is entitled to relief.”
Although this Rule “does not require ‘detailed factual
allegations,”’ it demands more than “[a] pleading
that offers ‘labels and conclusions’ or ‘a formulaic
recitation of the elements of a cause of action’”
which, as the Supreme Court explained, “‘will not
do.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555
(2007)).
“To survive a motion to dismiss [under Rule
12(b)(6)], a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief
that is plausible on its face.’” Iqbal, 556 U.S. at 678
(quoting Twombly, 550 U.S. at 570). “A claim has
facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable

85

inference that the defendant is liable for the
misconduct alleged.” Id. (citing Twombly, 550 U.S. at
556). “Under this standard, ‘the complaint must give
the court reason to believe that this plaintiff has a
reasonable likelihood of mustering factual support
for these claims.’” Carter v. United States, 667 F.
Supp. 2d 1259, 1262 (D. Kan. 2009) (quoting Ridge
at Red Hawk, L.L.C. v. Schneider, 493 F.3d 1174,
1177 (10th Cir. 2007)).
And, although the Court must assume that
the factual allegations in a complaint are true, it is
“‘not bound to accept as true a legal conclusion
couched as a factual allegation.”’ Carter, 667 F.
Supp. 2d at 1263 (quoting Iqbal, 556 U.S. at 678).
“‘Threadbare recitals of the elements of a cause of
action, supported by mere conclusory statements, do
not suffice’” to state a claim for relief. Bixler v.
Foster, 596 F.3d 751, 756 (10th Cir. 2010) (quoting
Iqbal, 556 U.S. at 678).
III. Analysis
As already recited, all five defendants have
filed motions to dismiss. Plaintiff asserts claims
against defendants under federal and state law. The

86

court considers the federal claims that plaintiff
asserts against each defendant in Part A below.
Because the court concludes that none state a
plausible claim for relief against any defendant, the
court dismisses plaintiffs federal claims against all
defendants. And, because the court dismisses all
federal claims, the court considers in Part B, below,
whether it should exercise supplemental jurisdiction
over plaintiffs state law claims. The court declines to
do so.
A. Federal Law Claims
1. Defendant Layne Project
Plaintiff asserts that Layne Project violated his
constitutional rights under the First Amendment
and the Fourteenth Amendment’s Equal Protection
Clause. Doc. 70 at 12. Layne Project moves to
dismiss plaintiffs claims against it under Fed. R.
Civ. P. 12(b)(6) for failing to state claims for relief.2
a.

Fourteenth

Amendment

Equal

Protection Claim
The

Fourteenth Amendment’s Equal Protection

Clause provides that “[n]o State shall . . . deny to
any

person

within

its

87

jurisdiction

the

equal

protection of the laws.” U.S. Const, amend. XIV, § 1
(emphasis added). “That language establishes an
‘essential dichotomy’ between governmental action,
which is subject to scrutiny under the Fourteenth
Amendment, and private conduct, which ‘however
discriminatory or wrongful,’ is not subject to the
Fourteenth Amendment’s prohibitions.”

Wasatch

Equal, v. Alta Ski Lifts Co., 820 F.3d 381, 386 (10th
Cir. 2016) (quoting Gallagher v. Neil Young Freedom
Concert, 49 F.3d 1442,

1446 (10th Cir.

1995)

(quoting Jackson v. Metro. Edison Co., 419 U.S. 345,
349 (1974))). See also Lugar v. Edmondson Oil Co.,
457 U.S. 922, 924 (1982) (“Because the [Fourteenth]
Amendment is directed at the States, it can be
violated

only by conduct that

may be

fairly

characterized as ‘state action.’”).
The

Tenth

Circuit

instructs

courts

to

“evaluate whether challenged conduct constitutes
state action using a flexible approach.” Id. (citing
Gallagher, 49 F.3d at 1447). And, it applies four
different tests to determine whether a private entity
is subject to liability as a state actoF the nexus test,
the symbiotic relationship test, the joint action test,

88

and the public function test. Gallagher, 49 F.3d at
1447.

2 Layne Project also moves to strike plaintiffs Opposition to its
Motion to Dismiss because plaintiff filed it one day past the
local rule’s deadline for filing responses to dispositive motions.
See Doc. 94 at 2 (citing D. Kan. Rule 6.1(d)). Although
plaintiffs pro se status does not excuse him from complying
with the federal and local rules, the court nevertheless
considers his untimely Opposition because nothing suggests
bad faith and Layne Project never alleges prejudice caused by
the one-day
delay. Also, plaintiffs Opposition does not change the outcome
here. Instead, plaintiffs Opposition only confirms the court’s
conclusion that his federal claims against Layne Protect fail to
state plausible claims for relief. The court thus denies Layne
Project’s Motion to Strike. Doc. 94.

The nexus test requires a “sufficiently close
nexus between the government and the challenged
conduct” and, in most cases, renders a state liable for
a private individual’s conduct “only when [the State]
has exercised coercive power or has provided such
significant encouragement, either overt or covert,
that the choice must in law be deemed to be that of

89

the State.” Id. at 1448 (citations and internal
quotation

marks

omitted).

The

symbiotic

relationship
test asks whether the state “has so far insinuated
itself into a position of interdependence with a
private party that it must be recognized as a joint
participant in the challenged activity.” Id. at 1451
(citations and internal quotation marks omitted).
The joint action test requires courts to “examine
whether state officials and private parties have
acted in concert in effecting a particular deprivation
of constitutional rights.” Id. at 1453 (citations
omitted). Finally, the public function test asks
whether the

challenged

action

is

“a

function

traditionally exclusively reserved to the State.” Id. at
1456

(citations

and

internal

quotation

marks

omitted). No matter the test applied, “‘the conduct
allegedly causing the deprivation of a federal right’
must be ‘fairly attributable to the State.’” Id. at 1447
(quoting Lugar v. Edmondson Oil Co., 457 U.S. 922,
937 (1982)).
Here, no matter which test is applied and
even assuming the facts alleged in plaintiffs

90

Amended Complaint are true, his revised pleading
still alleges no facts sufficient to state a plausible
claim against Layne Project for conduct that was
“fairly attributable to the state.” Plaintiff makes the
conclusory allegation that “Layne Project worked in
conjunction with Johnson County Court, and was
given authority by the court to act as a State actor.”
Doc. 70 at 15. Plaintiff also asserts that “Layne
Project was a ‘nexus’ with the Court and made
policies against the Plaintiff that violated Plaintiff s
Civil Rights.” Id. But, plaintiff provides no facts
anywhere in his Amended Complaint to support
these conclusory statements. Plaintiffs allegations
thus are insufficient to state a plausible claim
against Layne Project. See Scott v. 11 Hern, 216
F.3d 897, 907 (10th Cir. 2000) (explaining that a
plaintiff attempting to assert state action by alleging
a conspiracy between private defendants and “state
officials” must allege more than “mere conclusory
allegations with no supporting factual averments
[which]

are

insufficient;

the

pleadings

must

specifically present facts tending to show agreement
and concerted action” (citation omitted)); see also

91

Lindsey v. Thomson, 275 F. App’x 744, 746 (10th Cir.
2007)

(holding

that

conclusory

allegations

of

conspiracy are insufficient to subject a private party
to liability; instead the “allegations of conspiracy
must provide some factual basis to support the
existence of any conspiracy to violate the Plaintiffs
rights”

(quoting

Crabtree ex rel.

Crabtree

v.

Muchmore, 904 F.2d 1475, 1481 (10th Cir. 1990))).
And, even if plaintiff had alleged sufficiently
that Layne Project was a state actor, the Amended
Complaint still fails to state a plausible claim for
violation of the Fourteenth Amendment’s Equal
Protection Clause. “The Equal Protection Clause of
the Fourteenth Amendment commands that no State
shall ‘deny to any person within its jurisdiction the
equal protection of the laws,’ which is essentially a
direction that all persons similarly situated should
be treated alike.” Citizen Ctr. v. Gessler, 770 F.3d
900, 917-18 (10th Cir. 2014) (quoting City of
Cleburne v. Cleburne Living Ctr., Inc., 473 U.S. 432,
439 (1985)). Thus, to assert an equal protection
claim, plaintiff must allege that Layne Project
treated him differently than other similar similarly-

92

(

situated individuals. See id. (holding that plaintiffs’
equal protection claim failed to state a valid claim
under Rule 12(b)(6) because plaintiff never alleged
differing

treatment

for

similarly-situated

individuals).
Here, plaintiff asserts that Layne Project
discriminated against him by failing to document his
complaints against Ms. Gorski and forcing him to
pay for services while not charging Ms. Gorski. But,
plaintiff fails to allege facts showing that Layne
Project treated him differently than any other
similarly-situated parents who used Layne Project’s
family Services. Without such allegations, plaintiff
can state no plausible claim against Layne Project
for violating the Fourteenth Amendment’s Equal
Protection Clause.

b. First Amendment Claim
Plaintiff also

alleges that Layne

Project

violated his rights under the First Amendment to
the

United

States

Constitution.

The

First

Amendment prohibits Congress from making any
“law respecting an establishment of religion, or

93

Springs, Kan., 217 F. App’x 787, 791 n.3 (10th Cir.
2007) (“The First Amendment . . . requires state
action[,]” so to hold a private individual personally
liable, the court “must determine whether [the
private individual’s] actions may ‘be fairly attributed
to the State.’” (first citing Hudgens v. NLRB, 424
U.S. 507, 513 (1976); then quoting Lugar, 457 U.S.
at 937). For the same reasons discussed above,
plaintiffs Amended Complaint asserts no facts
sufficient to infer that Layne Project’s actions are
“fairly attributable to the State” such that it can be
held liable for violating the First Amendment.
Plaintiff thus fails to state a plausible claim against
Layne Project under the First Amendment. The
court

thus

dismisses

plaintiffs

federal

claims

against Layne Project under Rule 12(b)(6) because
plaintiffs Amended Complaint fails to state a
plausible claim for relief under federal law.

2. Defendant City of Olathe
Plaintiff brings federal claims against Olathe under
42 U.S.C. § 1983, asserting violations of the Fourth
and

Sixth

Amendments

95

and

the

Fourteenth

Amendment’s Equal Protection and Due Process
Clauses. Doc. 70 at 3. Olathe moves to dismiss under
Fed. R. Civ. P. 12(b)(6), asserting that plaintiffs
federal claims fail to state a claim for relief.
Section 1983 prohibits “the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws” by any person acting under
color of law. 42 U.S.C. § 1983. The Supreme Court
has held that “a municipality cannot be held liable
solely because it employs a tortfeasor—or, in other
words, a municipality cannot be held liable under §
1983 on a respondeat superior theory.” Monell v.
Dep’t of Social Servs., 436 U.S. 690, 691 (1978).
Instead, a plaintiff may sue municipalities only for
their own unconstitutional policies or customs—not
for acts by their employees. Id. at 694-95.
Thus, “[a] plaintiff suing a municipality under
section 1983 for the acts of one of its employees must
prove: (l) that a municipal employee committed a
constitutional violation, and (2) that a municipal
policy or custom was the moving force behind the
constitutional deprivation.” Myers v. Okla. Cty. Bd.
of Cty. Comm’rs, 151 F.3d 1313, 1316 (10th Cir.

96

1998) (citing Monell, 436 U.S. at 694). The Tenth
Circuit has explained that “[a]n unconstitutional
deprivation is caused by a municipal ‘policy’ if it
results

from

decisions

of a

duly

constituted

legislative body or an official whose acts may fairly
be said to be those of the municipality itself.” Carney
v. City & Cty. of Denver, 534 F.3d 1269, 1274 (10th
Cir. 2008) (citation omitted). And, the Circuit has
defined a “custom” as “an act that, although not
formally approved by an appropriate decision maker,
has such widespread practice as to have the force of
law.” Id. (citation omitted). Such a custom is marked
by “continuing, persistent and widespread” actions
by municipal employees. Id. (quoting Gates v.
Unified Sch. Dist. No. 449, 996 F.2d 1035, 1041
(10th Cir. 1993)).
In its earlier Memorandum and Order, the
court observed that plaintiffs proposed Amended
Complaint failed to allege the existence of any
custom

or

policy

adopted

by

a

municipal

policymaker, or any facts supporting an inference
that one exists. Doc. 65 at 8. The court explained
that “[t]his is an essential requirement for asserting

97

a § 1983 claim against a municipality, and, without
such allegations, plaintiff fails to state a claim for
relief against Olathe.” Id. The court granted plaintiff
leave to file an Amended Complaint, directing him to
cure

the

Plaintiffs

deficiencies

identified.

Amended

Complaint

Id.

at

now

13-14.
asserts

conclusory allegations about Olathe’s purported
customs and practices. It otherwise fails to heed
to the court’s directive. Plaintiff still has pleaded no
facts showing that the alleged unconstitutional
conduct occurred under a municipal policy or custom
sufficient to subject Olathe to liability under § 1983.
Plaintiffs assertions of a municipal policy
include the following. First, plaintiff alleges that
Olathe’s “customs and practice for handling domestic
violence issues did not give the male Plaintiff Equal
Protection of the law as it was given to a female
citizen.” Doc. 70 at 3. Plaintiff also asserts^
City of Olathe customs and practices for domestic
violence

abuse

violated

Plaintiff

Shophar’s

constitutional rights, by refusing the Plaintiff
claims against the woman subject, however Olathe
Police interviewed the Plaintiff on 3 separate

98

occasions and threatened the Plaintiff with jail
time, if he did not produce evidence that the
Plaintiff did not “punch his child.”
Id. at 7. Last, plaintiff alleges:

Olathe

Police

Department

violated

the

Constitution and Federal law 42 U.S.C. § 1983
through their policy by withholding the Plaintiff
from his children without “due process” based on
allegations and not a “trial by court” with an
adjudication “beyond a reasonable doubt” that the
Plaintiff committed a violent act against a woman
and children. Olathe Police Department policy
violated the “color of the law” by given rights to
the female, and allowing the female to make a
report, however, refusing the male the rights to
his children, and denied the male the same equal
rights under the law to make a report against the
mother.
Id. at 8. In sum, plaintiff complains about how the
Olathe Police Department investigated the abuse
allegations asserted by Ms. Gorski. But he fails to
allege any facts to infer that a municipal policy or

99

custom provided the requisite moving force behind
the

alleged constitutional

deprivations

plaintiff

claims he sustained. Instead, plaintiff just makes
conclusory allegations about municipal customs,
which are insufficient to state a claim. Hall v.
Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991)
(explaining that a pro se litigant’s “conclusory
allegations without supporting factual averments
are insufficient to state a claim upon which relief can
be based”). Absent sufficient factual allegations,
plaintiff fails to state a § 1983 claim against Olathe.
See, e.g., Glaser v. City and Cty. of Denver, 557 F.
App’x 689, 702, 703 (10th Cir. 2014) (affirming Rule
12(b)(6) dismissal of § 1983 claims because plaintiffs
allegations that a municipality implemented an
unconstitutional policy and failed to train employees
properly were conclusory); McCormick v. City of
McAlester, 525 F. App’x 885, 888 (10th Cir. 2013)
(holding that plaintiffs

allegations of “several

instances of alleged free-speech retaliation by the
police department” failed to state a § 1983 claim
because he identified no “municipal policy or custom
that was the moving force behind [the] alleged

100

constitutional

deprivation”);

Dixon

v.

City

of

Wichita, Kan., No. 13-1033-RDR, 2013 WL 2422741,
at *3 (D. Kan. June 3, 2013) (holding that plaintiffs
§
1983 claims failed to state a claim because plaintiff
alleged

only

conclusory

allegations

of

unconstitutional policies without any factual support
such as “prior incidents involving similar conduct”).
Plaintiffs Amended Complaint fails to state a
claim against Olathe under §

1983. Plaintiffs

Amended Complaint also fails to assert facts to
allege claims for constitutional violations. The court
addresses each purported constitutional violation, in
turn.
a. Fourth Amendment
Plaintiff alleges that Olathe violated his Fourth
Amendment

rights

because

Olathe

Police

Department officers refused to disclose his children’s
location to him. Doc. 70 at 4. Plaintiff asserts that
the police lacked “probable cause to withhold the
children from [him], violating [p]laintiffs Fourth
Amendment rights to his blood born children.” Id.
The Fourth Amendment protects “[t]he right of the

101

people to be secure in their persons, houses, papers,
and effects, against unreasonable searches and
seizures.” U.S. Const, amend. IV.
Olathe asserts that plaintiff cannot state a
claim under the Fourth Amendment based on
officers’ refusal to disclose his kids’ location. Indeed,
plaintiff cites no law holding that these facts could
constitute a “seizure” capable of supporting a viable
Fourth Amendment claim. And, the court’s own
research has found no law to support this claim. “A
seizure occurs for Fourth Amendment purposes
when a reasonable person would have believed that
he was not free to leave.” Jones v. Hunt, 410 F.3d
1221, 1225-26 (10th Cir. 2005). Here, plaintiff never
alleges that Olathe seized him. And, generally,
“Fourth Amendment rights are personal rights
which . . .may not be vicariously asserted.” Rakas v.
Illinois, 439 U.S. 128, 133—34 (1978). Nevertheless,
the

Tenth

Circuit

has

noted

that

in

some

circumstances, “a parent has Fourth Amendment
standing to challenge a seizure involving a minor
child.” J.B. v. Washington Cty., 127 F.3d 919, 928
(10th Cir. 1997). But see Hollingsworth v. Hill, 110

102

F.3d 733, 739 (10th Cir. 1997) (holding that the
removal of plaintiffs children
plaintiffs

Fourth Amendment

did not violate
rights

and that

plaintiff could not assert a Fourth Amendment claim
on behalf of her children because her complaint did
not include the children as plaintiffs).
But, even if plaintiff has standing to assert his
own Fourth Amendment claim and even if
a seizure occurred under the facts alleged here,
plaintiff

fails

to

allege

facts

supporting

an

unreasonable seizure sufficient to state a claim
under the Fourth Amendment. A reasonable seizure
requires “[w]ith limited circumstances . . . either a
warrant or probable cause.” Jones, 410 F.3d at 1227
(citing Camara v. Mun. Court, 387 U.S. 523, 528-29
(1967)); see also Illinois v. McArthur, 531 U.S. 326,
330 (2001) C‘[I]n the ordinary case, seizures of
personal property are unreasonable within the
meaning of the Fourth Amendment, without more,
unless . . . accomplished pursuant to a judicial
warrant, issued by a neutral magistrate after finding
probable cause.” (citation and internal quotation
marks omitted)).

103

Here, an August 12, 2015 order issued by a
Kansas state court judge prohibited officers from
disclosing the children’s location to plaintiff. See
Docs. 85*2, 85-3, 85-4 (Orders issued by the District
Court of Johnson County, Kansas, ordering that the
children reside with Ms. Gorski and that Ms.
Gorski’s address and telephone number remain
confidential for protection).

3 Under these facts, plaintiffs allegations that the officers
refused to tell him the children’s location do not assert an
“unreasonable seizure” sufficient to state a Fourth Amendment
claim. See, e.g., Hunt v. Green, 376 F. Supp. 2d 1043, 1056
(D.N.M. 2005) (holding that no unlawful seizure 3 The court
may take judicial notice of these state court orders when
deciding the motion to dismiss. See Pace v. Swerdlow, 519 F.3d
1067, 1072 (10th Cir. 2008) (explaining that courts may take
judicial notice of facts that are a matter of public record and of
state court documents, and courts properly may consider those
facts when deciding a motion to dismiss); see also Tal v. Hogan,
453 F.3d 1244, 1264 n.24 (10th Cir. 2006).

occurred

when

children

were

removed

from

grandmother’s physical custody because a state
family court had issued an order giving a state
agency legal custody of the children). Plaintiff thus

104

fails to state a plausible claim against Olathe for
Fourth Amendment violations.
b. Sixth Amendment
Plaintiffs Second Amended Complaint asserts a
Sixth

Amendment

claim

against

Olathe,

but

contains no facts explaining how Olathe violated
that constitutional provision. In his response to
Olathe’s Motion to Dismiss, plaintiff clarifies that he
brings his Sixth Amendment claim under the
“confrontation

clause

which

guarantees

the

opportunity to confront the [p]laintiffs accuser.” Doc.
92 at 7. The Sixth Amendment’s confrontation clause
provides that
“[i]n all criminal prosecutions, the accused shall
enjoy the right ... to be confronted with the
witnesses against him.” U.S. Const, amend. VI.
Plaintiffs Amended Complaint never alleges
any facts showing that Olathe prosecuted him for
any criminal violations or prevented him from
confronting his accuser during such proceedings. To
the

contrary,

plaintiffs

Amended

Complaint

describes the domestic civil case initiated by Ms.

105

J

Gorski. See generally Doc. 70; see also Docs. 85-1,
85-2, 85-3, 85-4.
Plaintiffs

Amended

Complaint

chronicles

certain history of that litigation, describes how
counsel represented plaintiff in that matter, and
even suggests that plaintiff had an opportunity to
confront

his

accuser—Ms.

Gorski—in

that

proceeding. For purposes of Olathe’s motion, plaintiff
alleges no facts showing that Olathe precluded him
from confronting his accuser in any “criminal
prosecution” or how even it did so in the civil lawsuit
he references. Plaintiffs Amended Complaint thus
fails to state a claim under the Sixth Amendment,
c. Fourteenth Amendment
Plaintiffs Amended Complaint asserts claims
against

Olathe

for

violating

his

Fourteenth

Amendment rights under the Due Process and Equal
Protection Clauses. Doc. 70 at 3. In plaintiffs
response to Olathe’s Motion to Dismiss, he addresses
only his due process claim. As a consequence, Olathe
argues that plaintiff has abandoned his equal
protection claims. See Hinsdale v. City of Liberal,
Kan., 19 F. App’x 749, 768-69 (10th Cir. 2001)

106

(affirming district court’s dismissal of plaintiffs
equal protection claim after it concluded that
plaintiff had abandoned the claim because he had
not addressed it in his memorandum opposing
summary
judgment).
Even if plaintiff has not abandoned his equal
protection claim, the Amended Complaint still fails
to allege facts to state a plausible claim against
Olathe. An equal protection claim requires plaintiff
to allege facts “demonstrat[ing] that the defendant’s
actions

had a discriminatory effect

and were

motivated by a discriminatory purpose.”

United

States v. Armstrong, 517 U.S. 456, 465 (1996); see
also Lindsey v. Thomson, 275 F. App’x 744, 746
(10th
Cir. 2007) (affirming district court’s dismissal of
plaintiffs equal protection claim under Rule 12(b)(6)
because he failed to allege that he was “ a member of
a protected class (other than a reference to a
disability)

or

that

any

of

the

Defendants

discriminated against him on that basis”).

107

Here, plaintiff alleges that the Olathe Police
Department discriminated against him by ignoring
his complaints about Ms. Gorski while investigating
Ms. Gorski’s abuse allegations against him. But,
plaintiffs Second Amended Complaint also describes
various communications he had with the Olathe
Police Department—including complaints that he
made to them about Ms. Gorski’s purported drug use
and

child

conclusory

endangerment.
allegation

that

Plaintiff makes
the

Olathe

the

Police

Department allows women to make false abuse
allegations without protecting men, but he provides
no facts that could support this conclusion, such as
facts

showing

that

Olathe

treated

plaintiff

differently than other similarly-situated individuals.
Instead, as Olathe argues, plaintiff bases his equal
protection allegations on his disagreement with how
Olathe’s police officers handled his complaints. The
Amended Complaint never alleges facts supporting
an inference that Olathe acted with a discriminatory
animus or that its conduct was motivated by a
discriminatory intent. Citizens have every right to
disagree with a governmental policy, or how it was

108

executed in a particular instance. But such a
disagreement is not actionable without facts capable
of establishing a discriminatory animus. Plaintiff
fails to state an equal protection claim against
Olathe.
Plaintiff also fails to state a plausible due
process

claim

Amendment

against Olathe.
protects

The

Fourteenth

individuals

against

deprivations of life, liberty, and property without
due
process of law. U.S. Const, amend. XIV, § 1. Here,
plaintiffs allegations are particularly hard to follow,
but it appears that he is alleging that Olathe
violated
prevented

the

Due

plaintiff

Process
from

Clause
seeing

because

his

it

children,

investigated Ms. Gorski’s abuse allegations, and
enforced a Protective Order entered by the Johnson
County District Court. Plaintiff never identifies,
though, what liberty or property interest Olathe
purportedly deprived him of without due process.
But liberally construing the Amended Complaint,
the court assumes plaintiff alleges that Olathe
deprived him of his liberty interest in his family

109

k

relationship with his two children. See Troxel v.
Granville, 530 U.S. 57, 65 (2000) (recognizing that
“the interest of parents in the care, custody, and
control of their children ... is perhaps the oldest of
the fundamental liberty interests recognized by this
Court”); see also Roska exrel. Roska v. Peterson, 328
F.3d 1230, 1245 (10th Cir. 2003) (recognizing that
“termination of parental rights impinges upon a
liberty interest of which a citizen may not be
deprived without due process of
law” (citing Santosky v. Kramer, 455 U.S. 745, 75354 (1982)).
Olathe argues that the Amended Complaint
fails to assert facts showing that plaintiff had an
interest protected by due process because, at all
times relevant to plaintiffs allegations against
Olathe, the Johnson County District Court already
had ordered that plaintiff had no right to custody of
the children. See Doc. 85-2 at 3. Also, the Kansas
District Court had placed the children in Ms.
Gorski’s custody and ordered that her address
remain confidential for her protection. Id. at 2.
Plaintiff thus had no protected liberty interest at

110

i

any time relevant to his claims against Olathe. See,
e.g., Shipway v. Jerlinski, No. 5:llcv00112, 2012 WL
1622395, at *9 (W.D. Va. Apr. 13, 2012) (holding that
the removal of a child from the grandmother’s home
to investigate abuse allegations did not violate the
grandmother’s constitutional rights because she had
“no liberty interest in the custody,

care

and

management of the removed child” and “equally no
liberty interest or right ... to remain free of child
abuse investigations” (first citing Troxel v. Granville,
530 U.S. 57, 65-66 (2000); then citing Croft v.
Westmoreland Cty. Children and Youth Servs., 103
F.3d 1123, 1125 (3d Cir. 1997))).
Plaintiffs Amended Complaint makes

no

allegation that Olathe issued the custody orders
without due process, much less that it had the
authority to do so. Instead, it was the Johnson
County, Kansas District Court who issued the
relevant custody orders. Under these facts, Olathe
never deprived plaintiff of a protected interest, and
his due process claim thus fails to state a claim for
relief.

Ill

I

As explained above, none of plaintiffs federal
claims assert a plausible claim for relief
against Olathe. Consequently, the court dismisses
the federal claims that plaintiff s Amended
Complaint

asserts

against Olathe

under

Rule

12(b)(6).
3. Defendant Ashlyn Yarnell
Plaintiff asserts federal claims against Ms. Yarnell
under 42 U.S.C. §§ 1983 and 1985. These claims
allege violations of the Fourteenth Amendment’s
Due Process and Equal Protection Clauses and the
First Amendment’s protection of religious freedom.
Ms. Yarnell invokes several arguments to dismiss
plaintiffs Complaint, including that she is immune
from liability as a court-appointed guardian ad
litem.

The

court

explained

in

its

earlier

Memorandum and Order that a guardian ad litem is
entitled to quasi-judicial immunity for acts “within
the core duties of a [guardian ad litem] in assisting
the court—that is, in performing a ‘function [ ]
closely associated with the judicial process.’” Doc. 65
at 5 (quoting Dahl v. Charles F. Dahl, M.D., P.C.
Defined Ben. Pension Tr., 744 F.3d 623, 630 (10th

112

Cir. 2014) (quoting Cleavinger v. Saxner, 474 U.S.
193, 200 (1985))). A guardian ad litem is not
immune, however, “for acts taken in the ‘clear
absence of all jurisdiction.’” Id. (quoting Stump v.
Sparkman, 435 U.S. 349, 357 (1978)). But a given act
does not exceed a guardian ad litem’s jurisdiction
just because it is “wrongful, even unlawful.” Id. at
630-31. Immunity still applies
when an act “was [taken] in error, was done
maliciously, or was in excess of. . . authority.” Id.
at 631 (quoting Stump, 435 U.S. at 356-57).
Even

though

the

court’s

earlier

Order

explained how the law governing immunity for a
court'appointed guardian ad litem works, plaintiffs
Amended Complaint still fails to assert claims
against Ms. Yarnell to deprive her of immunity.
Instead, the Amended Complaint asserts claims
against Ms. Yarnell only for acts she performed in
her capacity as a court-appointed guardian ad litem
and in furtherance of the judicial process. Plaintiffs
Amended Complaint merely adds conclusory gloss
that Ms. Yarnell “ma[de] a ruling outside of her
jurisdiction that Plaintiff was a threat to his

113

y

children by limiting Plaintiffs visit[s] with his
children based on claims that the Plaintiff ‘follows
the Bible”’ and that plaintiff “would act out of her
jurisdiction and refuse to allow the Plaintiff to see
his children, unless he used [a particular agency].”
Doc. 70 at 20-21, 23. But, plaintiff asserts no facts to
support an inference that Ms. Yarnell committed
these acts in the absence of jurisdiction. Instead, all
of plaintiffs allegations against Ms. Yarnell involve
acts she committed as part of her appointment as a
guardian ad litem for the children. Plaintiffs
allegations that Ms. Yarnell was biased against
plaintiff or that she made false statements about
him in court also cannot suffice to deprive her of
immunity, even if these
acts were wrongful or unlawful. See Dahl, 744 F.3d
at 631. Ms. Yarnell thus is immune from liability
against the claims asserted in plaintiffs Amended
Complaint.
Even if plaintiffs

allegations

sufficiently

asserted facts to support an inference that Ms.
Yarnell acted without jurisdiction so that immunity
would not apply, plaintiffs Amended Complaint still

114

fails to state a claim against Ms. Yarnell under both
§ 1983 or § 1985. Plaintiff alleges no facts to infer
that Ms. Yarnell is a state actor such that she can be
held liable for violating § 1983. See Meeker v.
Kercher, 782 F.2d 153, 155 (10th Cir. 1986) (holding
that a guardian ad litem is not a state actor but
instead “is a fiduciary who must act in the minor’s
best interest” and thus “owes his or her undivided
loyalty to the minor, not the state” (citations and
internal quotation marks omitted)); see also Fuller v.
Davis, 594 F. App’x 935, 939 (10th Cir. 2014)
(affirming district court’s dismissal of § 1983 claim
asserted against a guardian ad litem because he was
“not a state actor proceeding under color of state law
for purposes of § 1983”). Here, plaintiff has included
allegations in his Amended Complaint that accuse
Ms. Yarnell of “conspir[ing] to force the Plaintiff to
use an affiliate Agency so that Barb Sharp could
continue to write negative reports against the
Plaintiff, to keep him on supervised visits, to get an
‘adjudication’ by a court that the father was an ‘unfit’
parent.” Doc. 70 at 23. He also alleges that “Ms.
Yarnell conspired with the State of Kansas Erica

115

Miller, DCF and KVC to submit continual false, and
negative reports against the father, violating due
process of the law.” Id. But these allegations are just
conclusions, and the Amended Complaint alleges no
facts to support an inference that Ms. Yarnell’s
actions are ones fairly attributable to the State.
Plaintiff thus fails to state a viable § 1983 claim
against Ms. Yarnell. See Beedle v. Wilson, 422 F.3d
1059, 1073 (10th Cir. 2005) (affirming Rule 12(b)(6)
dismissal of conclusory allegations of conspiracy with
state actors because they were insufficient to state a
§ 1983 claim against a private defendant); see also
Fuller, 594 F. App’x at 939 (affirming dismissal of a
§ 1983 claim against a guardian ad litem because
plaintiffs “conjecture that [the guardian ad litem]
conspired with other defendants

to create

an

unenforceable no-contact order is too speculative and
conclusory to suffice” to state a plausible claim).
Plaintiff also fails to state a plausible § 1985
claim against Ms. Yarnell. Section 1985 prohibits
persons

from

conspiring

“for

the

purpose

of

depriving, either directly or indirectly, any person or
class of persons of the equal protection of the laws,

116

or of equal privileges and immunities under the
laws.” 42 U.S.C. § 1985(3). A conspiracy claim under
§ 1985 “requires at least a combination of two or
more persons acting in concert and an allegation of a
meeting of the minds, an agreement among the
defendants, or a general conspiratorial objective.”
Brooks v. Gaenzle, 614 F.3d 1213, 1227-28 (10th
Cir.

2010) (citations omitted).

Mere conclusory

allegations of conspiracy cannot state a valid claim
under § 1985. Hogan v. Winder, 762 F.3d 1096, 1114
(10th Cir. 2014).
As

described

above,

plaintiffs

Amended

Complaint just asserts conclusory allegations of
a conspiracy. Such allegations fail to state a
plausible

claim

under

§

1985.

The

Amended

Complaint pleads no facts demonstrating a meeting
of the minds, an agreement among defendants, or a
general conspiratorial objective. Plaintiff thus fails
to state a plausible § 1985 claim against Ms. Yarnell.
For all these reasons, the court concludes that
plaintiffs Amended Complaints fails to state any
federal claim for relief against Ms. Yarnell. The

117

court thus grants Ms. Yarnell’s Motion to Dismiss
the federal claims asserted against her.
4. Defendant Safehome
Plaintiff asserts that Safehome violated his
constitutional rights under the Fourth, Sixth, and
Fourteenth Amendment. Doc. 70 at 9. Plaintiff also
asserts that Safehome violated 18 U.S.C. § 1028. Id.
Safehome contends that none of these claims state a
plausible claim for relief. The court agrees.
a. Constitutional Claims
To

assert viable

constitutional

claims

against

Safehome, plaintiff must allege state action. See,
e.g.,

Lugar,

457

U.S.

at

927

(“Because

the

[Fourteenth] Amendment is directed at the States, it
can be violated only by conduct that may be fairly
characterized as ‘state action.”’); United States v.
Poe,

556

F.3d

(explaining that

1113,

1123

the

Fourth

(10th

Cir.

Amendment

2009)
only

“guards against unreasonable searches and seizures
by state actors” not private individuals unless they
are acting as or in concert with the government);
Zapata v. Pub. Defenders Office, 252 F. App’x 237,
239

(10th

Cir.

2007)

(affirming

118

dismissal

of

plaintiffs claims that a private attorney violated his
Sixth Amendment and due process rights because
the attorney was not acting under color of state law).
The Amended Complaint never alleges that
Safehome is a state actor. Also, it alleges no facts
allowing an inference that Safehome’s actions are
fairly attributable to the state so that it can be held
liable, as a private entity, for violating plaintiffs
rights under the United States Constitution.
Plaintiffs Amended Complaint also fails to
state viable claims against Safehome under the
Fourth, Sixth, and Fourteenth Amendment for the
same reasons already discussed. Plaintiff alleges
that Safehome placed his children in a shelter
without his consent and assisted Ms. Gorski with
finding a residence. Doc. 70 at 9, 10. These facts
allege no unreasonable search or seizure violating
the Fourth Amendment. See supra Part III.A.2.a.
The Amended Complaint also alleges no facts
explaining how Safehome violated plaintiffs Sixth
Amendment rights. In his Opposition, plaintiff
contends that Safehome denied plaintiff the right to
confront his accuser. Doc. 97 at 4. But, the Amended

119

Complaint fails

to

allege facts

supporting an

inference that Safehome precluded plaintiff from
confronting his accuser in a criminal prosecution,
much less the relevant civil proceedings here. See
supra Part III.A.2.b. Finally, plaintiff fails to allege
facts to infer that Safehome violated plaintiffs rights
under

the

Fourteenth

Amendment’s

Equal

Protection or Due Process Clauses. See supra Part
III.A.2.C.
b. 18 U.S.C. § 1028
Plaintiff also fails to state a plausible claim for relief
under 18 U.S.C. § 1028. This statute criminalizes
fraud in connection with identification documents.
This criminal statute provides no private right of
action. See Obianyo v. Tennessee, 518 F. App’x 71,
72 (3d Cir. 2013) (holding that § 1028 “provide[s] no
private right of action for use by a [private]
litigant”);
see also Sump v. Schaulis, No. 07'4014-RDR, 2007
WL 1054277, at *1 (D. Kan. Apr. 9, 2007) (holding
that plaintiff, as a private citizen, could not bring an
action under § 1028). So, plaintiff fails to state a

120

plausible claim for relief against Safehome under
this statute.
5. Defendant KVC Kansas
Plaintiff brings claims against KVC Kansas under
42

U.S.C.

§

1985,

alleging violations

of the

Fourteenth Amendment’s Equal Protection and Due
Process Clauses. Doc. 70 at 15. Plaintiffs claims
against KVC Kansas fail to state a plausible claim
for relief for two reasons.
First, the Amended Complaint fails to allege
facts sufficient to state a § 1985 claim against KVC
Kansas. As described in Part III.A.3. above, a
conspiracy claim under § 1985 “requires at least a
combination of two or more persons acting in concert
and an allegation of a meeting of the minds, an
agreement among the defendants, or a general
conspiratorial objective.” Brooks v. Gaenzle, 614 F.3d
1213, 1227-28 (10th Cir. 2010) (citations omitted).
And, mere conclusory allegations of conspiracy are
insufficient to state a valid claim under § 1985.
Hogan v. Winder, 762 F.3d 1096, 1114 (10th Cir.
2014). Plaintiffs Amended Complaint just makes
conclusory allegations that KVC Kansas conspired

121

against plaintiff to terminate his parental rights and
place plaintiffs children with Ms. Gorski. See, e.g.,
Doc. 70 at 18, 19. But, the pleading alleges no facts
capable

of

specifically,

supporting
the

this

pleading

fails

conclusion.
to

allege

More
facts

demonstrating a meeting of the minds, an agreement
among defendants,

or a general conspiratorial

objective sufficient to state a § 1985 claim. Plaintiffs
conclusory allegations simply fail to state a plausible
claim against KVC Kansas under § 1985.
Second, plaintiff fails to allege facts sufficient
to state a claim against KVC Kansas for violating
the

Fourteenth

Amendment.

The

Amended

Complaint makes the conclusory allegation that
KVC Kansas “worked in conjunction with Johnson
County Court, and was given authority by the court
to act as a State Actor.” Doc. 70 at 19. But, the
Amended Complaint contains no facts to support this
conclusory

assertion.

It

also

asserts

no

facts

supporting an inference that
KVC Kansas’ actions are fairly attributable to the
state such that it can be held liable for violating the
Fourteenth Amendment. See, e.g., Lugar, 457 U.S.

122

at 927 (“Because the [Fourteenth] Amendment is
directed at the States, it can be violated only by
conduct that may be fairly characterized as ‘state
action.’”). For both of these reasons, plaintiffs claims
against KVC Kansas fail to state a plausible claim
for relief.
B. State Law Claims
Plaintiffs Second Amended Complaint also
asserts state law claims against the four defendants.
Namely, plaintiff brings a claim under Kan. Stat.
Ann. § 38-141 against Olathe, Layne Project, KVC
Kansas, and Ashlyn Yarnell. Doc. 70 at 3, 12, 15, 20.
Plaintiff also asserts that Layne Project violated
Kan.

Stat. Ann.

§

38-223(e).

Doc.

70

at

12.

Defendants argue that the court lacks subject matter
jurisdiction over these claims because plaintiffs
Amended Complaint only invokes jurisdiction under
28 U.S.C. § 1331. Section 1331 confers federal
courts with “original jurisdiction of all civil actions
arising under the Constitution, laws, or treaties of
the United States.” 28 U.S.C. § 1331. Because
plaintiffs state law claims arise under Kansas

123

statutes—not federal laws—section 1331 confers no
subject matter jurisdiction for them.
Nevertheless,

the

court

could

exercise

supplemental jurisdiction over plaintiffs state law
claims under 28 U.S.C. § 1367. Although plaintiff
never pleads supplemental jurisdiction under § 1367
specifically,

the

court

liberally

construes

his

Amended Complaint as doing so. But, the court also
may decline to exercise supplemental jurisdiction
under § 1367 if it has “dismissed all claims over
which it has original jurisdiction.” 28 U.S.C. §
1367(c)(3).
The

decision

whether

to

exercise

supplemental jurisdiction is committed to a district
court’s sound discretion. Exuni v. United States
Olympic Comm., 389 F.3d 1130, 1138-39 (10th Cir.
2004). Section 1367 “reflects the understanding that,
when deciding whether to exercise supplemental
jurisdiction, ‘a federal court should consider and
weigh in each case, and at every stage of the
litigation,

the

values

of

judicial

economy,

convenience, fairness and comity.’” City of Chicago v.
Int’l Coll, of Surgeons, 522 U.S. 156, 172-73 (1997)

124

(quoting Carnegie-Mellon Univ. v. Cohill, 484 U.S.
343, 350 (1988)). “[I]n the usual case in which all
federal-law claims are eliminated before trial, the
balance of factors to be considered under the pendent
jurisdiction doctrine—judicial economy, convenience,
fairness, and comity—will point toward declining to
exercise jurisdiction over the remaining state-law
claims.” CarnegieMellon Univ., 484 U.S. at 350 n.7;
see also Tonkovich v. Kan. Bd. of Regents, 254 F.3d
941, 945 (10th Cir. 2001) (holding that where
pretrial

proceedings

and

discovery

have

not

commenced in earnest, “considerations of judicial
economy, convenience, and fairness do not favor
retaining

jurisdiction”

(citations

and

internal

quotation marks omitted)). Also, “[njotions of comity
and federalism demand that a
state court try its own lawsuits, absent compelling
reasons to the contrary.” Thatcher Enters, v. Cache
Cty. Corp., 902 F.2d 1472, 1478 (10th Cir. 1990).
Here, the court has dismissed every claim
against defendants which it had original jurisdiction
to decide. No pretrial proceedings or discovery have
taken place yet, and this case is not unusual. The

125

court thus exercises its discretion and declines to
exercise supplemental jurisdiction over plaintiffs
state law claims.
IV. Conclusion
For all these reasons, plaintiffs Amended Complaint
fails to state plausible claims under federal law
against each of the five defendants. The court notes
that it already has afforded plaintiff the opportunity
to amend his complaint, but yet his Amended
Complaint still fails to plead “factual content” that
allows the court to “draw the reasonable inference
that the defendant[s] [are] liable” for plaintiffs
asserted federal claims. Iqbal\ 556 U.S. at 678.
When the court granted plaintiff leave to file
an amended pleading, the court cautioned
him that he had “one final opportunity to file an
Amended Complaint—one that addresses all of the
concerns raised by the court in this Order.” Doc. 65
at 13. The court also explained to plaintiff that his
amended pleading “must plead facts—and not just
conclusions—to state plausible claims and cure the
deficiencies identified [in the court’s Order].” Id.
Despite

this

admonition,

126

plaintiffs

Amended

Complaint failed to cure the deficiencies the court
had identified.
Because plaintiff fails to plead facts to state
plausible federal claims against the five defendants,
the court grants defendants’ motions to dismiss
plaintiffs federal claims. The court declines to
exercise supplemental jurisdiction over plaintiffs
state law claims.
IT IS THEREFORE ORDERED BY THE
COURT THAT defendants Layne Project, Ashlyn
Yarnell, City of Olathe, Safe Home of Kansas, and
KVC Kansas’ Motions to Dismiss (Docs. 77, 79, 84,
86, 88) are granted.
IT IS FURTHER ORDERED THAT defendant
Layne Project’s Motion to Strike (Doc. 94) is denied.
IT IS SO ORDERED.
Dated this 16th day of June 2017, at Topeka, Kansas.
s/ Daniel D. Crabtree
Daniel D. Crabtree
United States District Judge

127

APPENDIX 6
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
JOREL SHOPHAR,
Plaintiff,
v.
Case No. 16-CV-4043-DDC-KGS
STATE OF KANSAS, et al.,
Defendants.
AMENDED MEMORANDUM AND ORDER1
Pro se plaintiff Jorel D. Shopar brings this action
against the mother of his two children, various state
and local agencies, and individuals who, he contends,
have contrived a false campaign against him and
conspired
Generally,

to

terminate

plaintiff

discriminated

against

his

alleges
him

parental
that
and

rights.

defendants
violated

his

constitutional and civil rights when his children
were placed in the temporary custody of the State of
Kansas in September 2015, and later placed in the
custody of their mother. Plaintiff asserts claims
under 42 U.S.C. §§ 1983 and 1985 and various
federal and Kansas criminal statutes.

128

Five of the seven defendants have filed
motions to dismiss plaintiffs Second Amended
Complaint

(Doc.

90). 2

These

motions

include:

defendant State of Kansas’ Motion to Dismiss (Doc.
91), defendant MOMS Club’s Motion to Dismiss
(Doc. 93), defendant Audra Weaver’s Motion to
Dismiss (Doc. 94), defendant Kansas Department for
Children and Families’ Motion

1 The court issues this Amended Memorandum and Order to
correct a typographical error that appears in the original
Memorandum and Order issued on March 17, 2017. Doc. 111.
On page 23 of the original order, the court referenced defendant
Audra Weaver when it should have referred to defendant
Krissy Gorski. This Amended Memorandum and Order reflects
the appropriate correction. 2 These defendants also filed
motions to dismiss plaintiffs original Complaint (Doc. l) and
his First
Amended Complaint (Doc. 31). See Docs. 9, 28, 45, 46, 64, 68.
Plaintiffs filing of his Second Amended Complaint renders
these motions moot. The court thus denies the motions as moot.

to Dismiss (Doc. 95); and defendant Krissy
Gorski’s Motion to Dismiss (Doc. 98).3 After carefully
considering the parties’ motions and plaintiffs

129

responses

to

them,

the

court

concludes

that

plaintiffs claims against these five defendants fail as
a matter of law because the court either lacks
subject matter jurisdiction or the claims fail to state
a claim for relief. The court thus grants the motions
to dismiss filed by defendants State of Kansas,
MOMS Club, Audra Weaver, Kansas Department for
Children and Families, and Krissy Gorski. The court
explains why
below.
I. Pro Se Litigant Standard
Because plaintiff proceeds pro se, the court
must construe his filings liberally and hold them to a
less stringent standard than formal pleadings
drafted by attorneys. James v. Wadas,12A F.3d 1312,
1315 (10th Cir. 2013); Hall v. Bellmon, 935 F.2d
1106, 1110 (10th Cir. 1991). This liberal standard
requires the court to construe a pro se plaintiffs
pleadings as stating a valid claim if a reasonable
reading of them allows the court to do so “despite the
plaintiffs failure to cite proper legal authority, his
confusion of various legal theories, his poor syntax

130

and sentence construction, or his unfamiliarity with
pleading requirements.” Hall, 935 F.2d at 1110.
But, at the same time, the court will not serve
as a pro se litigant’s advocate. James, 724 F.3d at
1315. The court “cannot take on the responsibility of
serving as the litigant’s attorney in constructing
arguments and searching the record.” Garrett v.
Selby Connor Maddux & Janer,

3 The other two defendants have not answered plaintiffs
Second Amended Complaint. Pro se defendant Teena Wilke
filed a “Response” to plaintiffs First Amended Complaint. Doc.
49. The filing was docketed as an Answer, but it appears to
seek dismissal of plaintiffs First Amended Complaint for
failing to state a claim. Even if the court construes Ms. Wilke’s
“Response” as a motion to dismiss, the court must deny the
filing as moot because plaintiffs Second Amended Complaint is
now the operative pleading in the case. Ms. Wilke never has
responded to plaintiffs Second Amended Complaint. Ms. Wilke
also filed a purported answer on behalf of MOMs Club of
Olathe East (Doc. 52). On August 11, 2016, the court ordered
Ms. Wilke to show cause why it should not strike the purported
answer because parties proceeding pro se may not represent
other parties in federal court. Doc. 60. Ms. Wilke never has
responded to the Show Cause Order. In a separate order, the
court strikes the Answer of MOMs Club of Olathe East filed by

131

Ms. Wilke, for reasons already explained in the Show Cause
Order.

425 F.3d 836, 840 (10th Cir. 2005). Also, the
requirement that the court must read a pro se
plaintiffs pleadings broadly “does not relieve the
plaintiff of the burden of alleging sufficient facts on
which a recognized legal claim could be based.” Hall,
935 F.2d at 1110. And, a plaintiffs pro se status does
not excuse him from complying with federal and
local rules. See Nielsen v. Price, 17 F.3d 1276, 1277
(10th Cir. 1994) (“This court has repeatedly insisted
that
pro se parties follow the same rules of procedure that
govern other litigants.” (citations and
internal quotation marks omitted)).
II. Factual Background
The following facts are taken from plaintiffs
Second Amended Complaint (Doc. 90) and viewed in
the light most favorable to him. See, e.g., S.E.C. v.
Shields,

744 F.3d

633,

640

(10th

Cir.

2014)

(explaining that on a Rule 12(b)(6) motion, the court
“accept[s] as true all wellpleaded factual allegations

132

in the complaint and view[s] them in the light most
favorable to the [plaintiff]” (citation and internal
quotation marks omitted)). The court also construes
plaintiffs allegations liberally because he proceeds
pro se.
Plaintiff and defendant Krissy Gorski had two
children together. On August 12, 2015, Ms. Gorski
took the children away from plaintiff. Ms. Gorski
also reported that plaintiff was physically abusing
her and the children to various agencies, including
the Olathe Police Department, the Johnson County
District Court, and the Department for Children and
Families (“DCF”). Plaintiff asserts that Ms. Gorski s
abuse claims are false.
Plaintiff accuses defendant Teena Wilke of
hiding the children in her home while she and Ms.
Gorski contrived the false abuse allegations. Plaintiff
also accuses Audra Weaver, President of MOMs Club
of Olathe East, of assisting Ms. Gorski by hiding his
children from him. He claims Ms. Weaver knew
where his children were located but refused to share
that with him. He also contends that Ms. Weaver

133

endangered his children’s safety by failing to disclose
their location to him.
Also, in August 2015, plaintiff complained to
DCF that Ms. Gorski was abusing drugs and
physically abusing the two children. Plaintiff claims
that

DCF

ignored

his

complaints

and

never

investigated them. Plaintiff also asked DCF to
require Ms. Gorski to submit to a urinalysis test so
she would not continue to abuse drugs. But, DCF
refused plaintiffs request.
In September 2015, the Johnson County
District Court placed the two children into DCF
custody. Plaintiff alleges that the judge’s decision to
remove the children from their parents’ custody was
based on false evidence submitted by Ms. Gorski.
Plaintiff claims that the state court placed the
children in the temporary custody of Teena Wilkie.
Plaintiff claims that Ms. Wikie is an unlicensed
foster parent who helped Ms. Gorski abuse drugs.
Plaintiff also contends that Ms. Wilke refused to
allow plaintiff to see or talk to his children but
permitted Ms. Gorski to visit the children at her
home each day.

134

Plaintiff alleges that various agencies and
individuals—including DCF and Assistant District
Attorney Erica Miller—conspired to mischaracterize
plaintiff as an abusive and aggressive man as part of
an effort to deprive him of his parental rights. To
that end, plaintiff claims DCF manipulated evidence
and covered up information about Ms. Gorski’s
criminal and drug abuse history. Plaintiff also
claims that Assistant District Attorney Erica Miller
filed motions requesting the state court to forbid
contact between plaintiff and his children based on
false information, submitted other false evidence
about plaintiff in the state court proceedings,
ignored plaintiffs complaints about Ms. Gorski,
withheld evidence of Ms. Gorski’s criminal record
and drug abuse, and authorized the children’s
reintegration into Ms. Gorski’s home.

Plaintiff

contends that Ms. Miller took these actions to
retaliate for plaintiffs filing of a federal lawsuit.4
On January 16, 2016, DCF reintegrated the
children into Ms. Gorski’s home. Plaintiff claims this
happened

without

adjudication.

a

court

Plaintiff also

135

ruling
contends

or
that

other
the

children were admitted to the emergency room on
several occasions after they were placed in Ms.
Gorski’s care. And, plaintiff asserts that DCF
ignored his requests to see his children throughout
the time when these events occurred and also
ignored his requests for his children’s medical
information.
Plaintiff alleges that defendants’ actions have
violated his constitutional rights. He also claims that
defendants’ actions have injured him by' depriving
him

of

his

humiliation,

children;
severe

causing
emotional

him

to

distress,

suffer
and

heartache; tarnishing his reputation as a father and
church leader! and losing business. Plaintiff also
claims that defendants’ actions have injured his
children because separating them from their father
has

caused

them

to

experience

abandonment,

trauma, loss of appetite, loss of weight, loss of sleep,
and emotional distress. Plaintiff seeks monetary
damages of $350,000 from each defendant. Doc. 90 at
22.
III. Legal Standard

136

A. Rule 12(b)(1) Motion to Dismiss for Lack of
Subject Matter Jurisdiction
“Federal courts are courts of limited jurisdiction and,
as such, must have a statutory basis to exercise
jurisdiction.” Montoya v. Chao, 296 F.3d 952, 955
(10th Cir. 2002) (citation omitted). Federal district
courts have original jurisdiction of all civil actions
arising under the constitution, laws, or treaties of
the United States or where there is diversity of
citizenship. 28 U.S.C. § 1331; 28 U.S.C. § 1332. “A
court lacking jurisdiction cannot render judgment
but must

4 Plaintiff references a separate federal lawsuit, not this one.
He refers to a lawsuit he has filed against the City of Olathe,
Layne Project, Safehome, Inc., KVC, and Ashlyn Yarnell (a
guardian ad litem). Doc. 90 at 12; see also Case No. 15-4961 (D.
Kan.).

dismiss the cause at any stage of the proceedings in
which it becomes apparent that jurisdiction is
lacking.” Basso v. Utah Power & Light Co., 495 F.2d
906, 909 (10th Cir. 1974) (citation omitted). Since
federal courts are courts of limited jurisdiction, there

137

is a presumption against jurisdiction, and the party
invoking federal jurisdiction bears the burden to
prove it exists. Kokkonen v. Guardian Life Ins. Co. of
Am., 511 U.S. 375, 377 (1994).
Generally, a motion to dismiss for lack of
subject matter jurisdiction under Fed. R. Civ. P.
12(b)(1) takes one of two forms-' a facial attack or a
factual attack. Holt v. United States, 46 F.3d 1000,
1002 (10th Cir. 1995). “First, a facial attack on the
complaint’s

allegations

as

jurisdiction

questions

the

to

subject

sufficiency

matter
of

the

complaint. In reviewing a facial attack on the
complaint,

a

district

court

must

accept

the

allegations in the complaint as true.” Id. (citing Ohio
Nat’l Life Ins. Co. v. United States, 922 F.2d 320,
325 (6th Cir. 1990)) (internal citations omitted).
“Second, a party may go beyond allegations
contained in the complaint and challenge the facts
upon which subject matter jurisdiction depends.
When reviewing a factual attack on subject matter
jurisdiction, a district court may not presume the
truthfulness of the complaint’s factual allegations. A
court has wide discretion to allow affidavits, other

138

documents, and [to conduct] a limited evidentiary
hearing to resolve disputed jurisdictional facts under
Rule 12(b)(1).” Id. at 1003 (citations omitted); Los
Alamos Study Grp. v. U.S. Dep’t of Energy, 692 F.3d
1057, 1063-64 (10th Cir. 2012); see also Sizova v.
Nat’l Inst, of Standards & Tech., 282 F.3d 1320,
1324-25 (10th Cir. 2002) (holding that a court must
convert a motion to dismiss to a motion for summary
judgment under Fed. R. Civ. P. 56 only when the
jurisdictional question is intertwined with the merits
of case).
B. Rule 12(b)(2) Motion to Dismiss for Lack of
Personal Jurisdiction
A plaintiff bears the burden to establish
personal jurisdiction over each defendant named
in the action. Rockwood Select Asset Fund XI (6)'l,
LLC v. Devine, Millimet & Branch, 750 F.3d 1178,
1179-80 (10th Cir. 2014). But in the preliminary
stages of litigation, a plaintiffs burden to prove
personal jurisdiction is a light one. AST Sports Sci.,
Inc. v. CLFDistrib. Ltd., 514 F.3d 1054, 1056 (10th
Cir. 2008).

139

Where, as here, the court is asked to decide a
pretrial motion to dismiss for lack of personal
jurisdiction

without

conducting

an

evidentiary

hearing, plaintiff must make no more than a prima
facie showing of jurisdiction to defeat the motion. Id.
at 1056-57. “The plaintiff may make this prima facie
showing by demonstrating, via affidavit or other
written materials, facts that if true would support
jurisdiction over the defendant.” OMI Holdings, Inc.
v. Royal Ins. Co. of Can., 149 F.3d 1086, 1091 (10th
Cir. 1998).
To defeat a plaintiffs prima facie showing of
personal jurisdiction, defendants “must present a
compelling case demonstrating ‘that the presence of
some other considerations would render jurisdiction
unreasonable.’” Id. (quoting Burger King Corp. v.
Rudzewicz,

471

U.S.

462,

477

(1985)).

Where

defendants fail to controvert a plaintiffs allegations
with affidavits or other evidence, the court must
accept the well-pleaded allegations in the complaint
as true, and resolve any factual disputes in the
plaintiffs favor. Wenz v. Memery Crystal, 55 F.3d
1503, 1505 (loth Cir. 1995).

140

C. Rule 12(b)(6) Motion to Dismiss for Failure
to State a Claim
Fed. R. Civ. P. 8(a)(2) provides that a complaint
must contain “a short and plain statement of the
claim showing that the pleader is entitled to relief.”
Although this Rule “does not require ‘detailed factual
allegations,’” it demands more than “[a] pleading
that offers ‘labels and conclusions’ or ‘a formulaic
recitation of the elements of a cause of action’”
which, as the Supreme Court explained, “will not
do.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 555
(2007)).
“To survive a motion to dismiss, a complaint
must contain sufficient factual matter,accepted as
true, to ‘state a claim to relief that is plausible on its
face.’” Id. (quoting Twombly,550 U.S. at 570). “A
claim has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the
reasonable inference that the defendant is liable for
the misconduct alleged.” Id. (citing Twombly, 550
U.S. at 556). “Under this standard, ‘the complaint

141

must give the court reason to believe that this
plaintiff has a reasonable likelihood of mustering
factual support for these claims.’” Carter v. United
States, 667 F. Supp. 2d 1259, 1262 (D. Kan. 2009)
(quoting Ridge at Red Hawk, L.L.C. v. Schneider,
493 F.3d 1174, 1177 (10th Cir. 2007)).
Although the court must assume that the
factual allegations in the complaint are true, it is
“not bound to accept as true a legal conclusion
couched as a factual allegation.” Id. at 1263 (quoting
Iqbal, 556 U.S. at 678). “Threadbare recitals of the
elements of a cause of action, supported by mere
conclusory statements, do not suffice” to state a
claim for relief. Bixler v.Foster, 596 F.3d 751, 756
(10th Cir. 2010) (quoting Iqbal, 556 U.S. at 678).
When evaluating a motion to dismiss under
Fed. R. Civ. P. 12(b)(6), the court may
consider not only the complaint itself, but also
attached exhibits and documents incorporated into
the complaint by reference. Smith v. United States,
561 F.3d 1090, 1098 (10th Cir. 2009). A
court “may consider documents referred to in the
complaint if the documents are central to the

142

plaintiffs claim and the parties do not dispute the
documents’ authenticity.” Id. (quoting Alvarado v.
KOB TV, L.L.C., 493 F.3d 1210, 1215 (10th Cir.
2007)) (internal quotation marks omitted).
IV. Analysis
As stated above, five of the seven defendants
have filed motions to dismiss. The court considers
each motion separately below.
A. Defendant State of Kansas’ Motion to
Dismiss
Plaintiffs Second Amended Complaint asserts
claims against the State of Kansas (“the State”)
under 42 U.S.C. §§ 1983 and 1985, for alleged
violations of plaintiffs rights under the Fourteenth
Amendment’s Equal Protection Clause and Due
Process Clause. Doc. 90 at 12. The State moves to
dismiss plaintiffs claims under Fed. R. Civ. P.
12(b)(1). It asserts that the Eleventh Amendment
bars plaintiffs claims against the State, and thus
the court lacks subject matter jurisdiction over them.
The Eleventh Amendment provides: “The
Judicial power of the United States shall not be
construed to extend to any suit in law or equity,

143

commenced or prosecuted against one of the United
States by Citizens of another State, or by Citizens or
Subjects of any Foreign State.” The

Eleventh

Amendment grants immunity that “accordts] states
the respect owed them as joint sovereigns,” “applies
to any action brought against a state in federal
court, including suits initiated by a state’s own
citizens,” and “applies regardless of whether a
plaintiff seeks
declaratory or injunctive relief, or money damages.”
Steadfast Ins. Co. v. Agric. Ins. Co., 507 F.3d 1250,
1252 (10th Cir. 2007) (citations omitted). “The
ultimate guarantee of the Eleventh Amendment is
that nonconsenting States may not be sued by
private individuals in federal court.” Bd. of Trs. of
Univ. of Ala. v. Garrett, 531 U.S. 356, 363 (2001).
Eleventh Amendment immunity applies not only to
states but also extends to state entities that are
considered “arm[s] of the state.” Steadfast Ins. Co.,
507 F.3d at 1253 (citing Mt. Healthy City Sch. Dist.
v. Doyle, 429 U.S. 274, 280 (1977)).
“Two circumstances exist where a citizen may
sue a State in federal court without running afoul of

144

the Eleventh Amendment.” Ellis v. Univ. of Kan.
Med. Ctr., 163 F.3d 1186,1195 (10th Cir. 1998).
“First, a federal court may hear such suits if the
State has expressly waived its Eleventh Amendment
protection and consented to such suit[s] in the
federal courts.” Id. “Second, a State may have its
Eleventh

Amendment

immunity

abrogated

by

Congress if such abrogation was accomplished
pursuant to a valid exercise of power by Congress.”
Id. The State asserts that neither exception applies
here. The court agrees.
First, the State never has waived its Eleventh
Amendment immunity by expressly consenting to
suit in federal court. “The test for determining
whether

a

Amendment

State

has

waived

immunity

‘from

its

Eleventh

federal-court

jurisdiction is a stringent one’ and in ‘the absence of
an unequivocal waiver specifically applicable to
federal-court jurisdiction,’ [the court] will not find
that a State has waived its constitutional immunity.”
Id. (quoting Atascadero State Hosp. v. Scanlon, 473
U.S. 234, 241 (1985), superseded by statute on other
grounds as

145

stated in Lane v. Pena, 518 U.S. 187, 198 (1996)).
Although the State “has consented to suits for
damages under the Kansas Tort Claims Act,” it has
not unequivocally waived Eleventh Amendment
immunity

through

this

enactment.

Jones

v.

Courtney, 466 F. App’x 696, 700 (10th Cir. 2012)
(quoting Wendt v. Univ. of Kan. Med. Ctr., 59 P.3d
325, 335 (Kan. 2002)). To the contrary, the Kansas
Tort Claims Act includes a specific preservation of
this immunity^ “Nothing in this section or in the
Kansas tort claims act shall be construed as a waiver
by the state of Kansas of immunity from suit under
the 11th amendment to the constitution of the
United States.” Kan. Stat. Ann. § 75’6116(g); see
also Jones, 466 F. App’x at 700-01 (explaining that
the Kansas Tort Claims Act is no “waiver of
Eleventh

Amendment

immunity”

because

“the

statute tells us so” (citing Kan. Stat. Ann. § 756116(g))).
Second, Congress has never abrogated the
State’s Eleventh Amendment immunity through a
valid exercise of its power. It is well-established that
Congress never intended to abrogate

146

Eleventh

Amendment immunity when it enacted 42 U.S.C. §§
1983 and 1985. Ellis, 163 F.3d at 1196 (citing Quern
v. Jordan, 440 U.S. 332, 345 (1979)). Thus, plaintiffs
§§ 1983 and 1985 claims against the State here are
barred by Eleventh Amendment immunity.
Although not relevant here, an exception to
Eleventh Amendment immunity exists when suits
challenge the constitutionality of a state official’s
action enforcing state law. Green v. Mansour, 474
U.S. 64, 68 (1985) (citing Ex Parte Young, 209 U.S.
123, 159-60 (1908)). The Supreme Court has held
that such a suit is not one against the state itself. Id.
(citing Ex Parte Young, 209 U.S. at 159-60). Here,
plaintiff asserts no claims against state officials for
actions taken in their official capacities. Plaintiffs
Second Amended Complaint also never seeks any
form of injunctive or declaratory relief. Thus, the Ex
Parte Young exception does not apply here.
It appears that plaintiffs Second Amended
Complaint seeks to assert claims against the State
on a respondeat superior theory based on actions by
Assistant District Attorney Erica Miller. Plaintiff
alleges, for example, that Ms. Miller filed motions

147

requesting no contact between plaintiff and his
children premised on false information, submitted
other false evidence about plaintiff in the state court
proceedings, ignored plaintiffs complaints about Ms.
Gorski,withheld evidence of Ms. Gorski’s criminal
record and drug abuse, and authorized the children’s
reintegration into Ms. Gorski’s home. But, plaintiff
cannot hold the State vicariously liable for Ms.
Miller’s actions under §§ 1983 or 1985. See, e.g., City
of Canton v. Harris, 489 U.S. 378, 385 (1989)
(“Respondeat superior or vicarious liability will not
attach under § 1983.”); Howard v. Topeka Shawnee
Cty. Metro. Planning Comm’n, 578 F. Supp. 534,
538-39 (D. Kan. 1983) (holding that no vicarious
liability exists for claims brought under §§ 1983 or
1985).
For

all

these

reasons,

the

Eleventh

Amendment confers sovereign immunity on the
State.

The

court

jurisdiction

over

consequently,

it

thus

lacks

plaintiffs

grants

the

Dismiss.

148

subject

matter

claims.

And,

State’s

Motion

to

B. Defendant Department for Children and
Families’ Motion to Dismiss
Plaintiff s Second Amended Complaint asserts
claims against DCF under 42 U.S.C. §§ 1983 and
1985, for alleged violations of plaintiffs rights under
the Fourteenth Amendment’s Equal Protection and
Due Process Clauses. Doc. 90 at 12. Plaintiff also
asserts a claim under Kan. Stat. Ann. § 21-5601, a
criminal statute prohibiting child endangerment.
Defendant DCF moves to dismiss plaintiffs
claims because, it contends, it also is entitled to
Eleventh

Amendment

immunity.

Eleventh

Amendment immunity applies not only to states but
also extends to state entities that are considered
“arm[s] of the state.” Steadfast Ins. Co., 507 F.3d at
1253 (citing Doyle, 429 U.S. at 280).
Here, DCF is an agency of the State of
Kansas, and “not a legal entity capable of being
sued.” Protheroe v. Pokorny, No. 16-2387‘CM, 2016
WL 6822657, at *4 (D. Kan. Nov. 18,2016); see also
McCollum v. Kansas, No. 14-1049-EFM-KMH, 2014
WL 3341139, at *6 (D.Kan. July 8, 2014), affd, 599
F. App’x 841 (10th Cir. 2015) (explaining that “DCF

149

is the agency through which the state acts in all
matters that relate to children who are found to be
in need of care” and thus is “an arm of the state”).
Thus, the court lacks subject matter jurisdiction over
plaintiffs claims against DCF for the same reasons
that it lacks subject matter jurisdiction over the
claims against the State of Kansas, as discussed in
the

preceding section.

The

court

thus

grants

defendant DCFs Motion to Dismiss.
C. Defendant MOMs Club’s Motion to Dismiss
Plaintiffs

Second

Amended

Complaint

asserts

claims against MOMs Club (“MOMs Club”) under 42
U.S.C. § 1983, for alleged violations of plaintiffs
rights under the Fourth Amendment and the
Fourteenth Amendment’s Due Process Clause. Doc.
90 at 20.
MOMs Club moves to dismiss plaintiffs
claims for two reasons. First, MOMs Club asserts
that the court lacks personal jurisdiction over it.
Second, MOMs Club asserts that plaintiff cannot
assert a claim against MOMs Club under § 1983
because such a claim requires state action and

150

MOMs Club is not a state actor. The court agrees on
both points. It explains why below.
1. Defendant MOMs Club is not subject
to personal jurisdiction in Kansas.
Plaintiff s Second Amended Complaint asserts
federal question subject matter jurisdiction. Doc. 90
at

1

(“The

Federal Court has subject matter

jurisdiction and has the power to hear and make
binding judgment over this complaint because it is a
Case brought under the Federal Laws of Civil
Rights.”). Section 1331 of Title 28 of the United
States Code confers original jurisdiction on federal
district courts over “all civil actions arising under
the
Constitution, laws, or treaties of the United States.”
28 U.S.C. § 1331. In a federal question case, like this
one, a court can assert personal jurisdiction over a
defendant if (l) the applicable statute potentially
confers jurisdiction by authorizing service of process
on the defendant; and (2) the exercise of jurisdiction
comports with due process. Klein v. Cornelius, 786
F.3d 1310, 1317 (10th Cir. 2015).

151

Here, plaintiff brings claims against MOMs
Club under § 1983. This statute does not provide for
nationwide service of process. Trujillo v. Williams,
465 F.3d 1210, 1217 (10th Cir. 2006). Fed. R. Civ. P.
4(k)(l)(A)

thus

governs

service.

id:,

see

also

Dudnikov v. Chalk & Vermillion Fine Arts, Inc., 514
F.3d 1063, 1070 (10th Cir. 2008) (citing Fed. R. Civ.
P. 4(k)(l)(A)). This Rule requires the court to apply
the law of the forum state where the district court is
situated. Fed. R. Civ. P. 4(k)(l)(A).
Kansas’

long-arm

statute

is

construed

liberally to permit exercise of jurisdiction in every
situation

consistent

Constitution.

with

the

United

Federated Rural Elec. Ins.

States
Corp.

v.KootenaiElec. Coop., 17 F.3d 1302, 1305 (10th Cir.
1994); see also Kan. Stat. Ann. § 60-308(b)(l)(L) &
(b)(2). Thus, the court need not conduct a separate
personal jurisdiction analysis under Kansas law,
because the “first, statutory, inquiry effectively
collapses into the second, constitutional, analysis.”
Dudnikov, 514 F.3d at 1070.
The constitutional analysis requires a court to
determine whether “exercise [ing] jurisdiction [is] in

152

harmony with due process.”

Id.

This analysis

involves a two-step inquiry: (l) a defendant “must
have ‘minimum contacts’ with the forum state, such
that having to defend a lawsuit” in the forum, (2)
“would not ‘offend traditional notions of fair play and
substantial justice.’” Id. (quoting Int’l Shoe Co. v.
Washington, 326 U.S. 310, 316 (1945)). Plaintiffs can
satisfy the “minimum contacts” standard in either
one of two ways—by establishing general jurisdiction
or specific jurisdiction based on a defendant’s
contacts with the forum state. Rockwood Select
Asset Fund, 750 F.3d at 1179. The Tenth Circuit has
described how general jurisdiction and specific
jurisdiction differ, as follows:
General jurisdiction is based on an out-of-state
defendant’s

“continuous

and

systematic”

contacts with the forum state, and does not
require that the claim [at issue] be related to
those contacts. Specific jurisdiction, on the other
hand, is premised on something of a quid pro
quo'- in exchange for “benefiting” from some
purposive conduct directed at the forum state, a

153

party is deemed to consent to the exercise of
jurisdiction for claims related to those contacts.
Dudnikov, 514 F.3d at 1078 (citations omitted).
Here, neither general nor specific personal
jurisdiction exists. MOMs Club lacks sufficient
contacts with Kansas to subject itself to jurisdiction
in this forum. With its Motion to Dismiss, MOMs
Club has submitted a Declaration of Mary James.
Doc. 93-1. Ms. James is the Founder and Chairman
of MOMs Club. Id. Ms. James declares that MOMs
Club is a corporation organized under California
law. Id. Its corporate operations are carried out by
volunteers located throughout the country, but none
of the volunteers are in Kansas. Id.
own

any

real

corporation’s

property

registered

in

It

Kansas.

agent

is

does

not

Id.

The

located

in

California. Id. Plaintiff served MOMs Club in this
action by certified mail. Id. Ms. James also declares
that Audra Weaver is not and never has been the
President of MOMs Club. Id. And, she declares that
MOMs Club did not direct, coordinate, support,
approve, condone, participate in, or provide advice

154

for any of the actions alleged in plaintiffs Second
Amended Complaint. Id.
Under these facts, MOMs Club lacks sufficient
contacts with Kansas to confer specific personal
jurisdiction. See Newsome v. Gallacher, 722 F.3d
1257, 1264 (10th Cir. 2013) (explaining that a court
may exercise specific personal jurisdiction if (l) the
out-of-state defendant “purposefully directed” his
activities at residents of the forum state, and (2) the
plaintiffs injuries arose from those purposefully
directed activities). These facts also fail to establish
sufficient minimum contacts for the court to exercise
general jurisdiction. See Fireman’s Fund Ins. Co. v.
Thyssen Mining Constr. of Can., Ltd., 703 F.3d 488,
493 (10th Cir.2012) (explaining that a court may
exercise

general jurisdiction if the

defendant’s

contacts with the forum are “so continuous and
systematic as to render [it] essentially at home in
the forum State” (quoting Goodyear Dunlop Tires
Operations, S.A.

v. Brown, 564 U.S. 915, 919

(2011))).
Plaintiff

responds5

with

unsubstantiated

allegations that MOMs Club is “one in the same” as

155

a local chapter—MOMs Club of Olathe East. Doc.
100 at 4. Plaintiff asserts that the local chapter
“functions under the jurisdiction of Moms Club
which unites as one organization.” Id. He also
contends that the local chapter pays an annual
registration

fee

to MOMs

Club,

the

national

organization, and that the local chapter is required
to abide by the national organization’s bylaws. Id. at
3. Thus, plaintiff asserts, no separation exists
between MOMs Club and the local chapter for
personal jurisdiction purposes. Id.
Even accepting plaintiffs allegations as true,
they cannot suffice to confer general personal
jurisdiction

over

MOMs

Club,

as

a

national

organization. Other courts that have addressed this
issue have required the national organization to
exert control over the local chapter’s actions such
that the local chapter’s activities are imputed to the
national organization. See, e.g., Amazon.com, Inc. v.
Nat’l Ass’n of Coll. Stores, Inc., 826 F. Supp. 2d
1242,

1253

(W.D.

Wash.

2011)

(holding that

although a trade association had members in the
forum state and provided advocacy services and

156

resources for those members, those contacts “fall
well short of the requisite showing for general
jurisdiction” because it did not control the activities
of those members (citations and internal quotation
marks omitted)); Grand Aerie Fraternal Order of
Eagles v. Haygood, 402 S.W.3d 766, 778-82 (Tex. Ct.
App. 2013) (holding, under Texas law, that no
personal

jurisdiction

existed

over

a

national

organization because its alleged contacts

5 MOMs Club moved to strike plaintiffs’ Opposition (Doc. 100)
as untimely. See Doc. 102 (“Motion To Strike Plaintiffs
Response to Motion to Dismiss”). It asserts that plaintiff filed
his Opposition two days out of time without seeking the court’s
leave to do so. See D. Kan. Rule 6.1(d)(2) (providing that
“[Responses to motions to dismiss . . . must be filed and served
within 21 days”). The court has discretion to sanction a party
for filing an untimely response by striking the fifing. Sheldon v.
Khanai No. 07-2112-KHV, 2008 WL 474262, at *2 n.3 (D. Kan.
Feb. 19, 2008) (citing Curran v. AMI Fireplace Co., 163 F.
App’x 714, 718 (10th Cir. 2006, which reviewed a decision to
strike untimely response for abuse of discretion). The court
finds no need to strike plaintiffs Opposition here. The
arguments plaintiff asserts in his fifing do not change the
outcome of the motion to dismiss, so the court considers it. See
id. (denying a motion to strike an untimely filing because

157

“[allthough the Court discourages such tardiness, [the filing’s]
arguments will not materially change the resolution of [the
pending] motion”). The court thus denies MOMs Club’s Motion
to Strike.

with a local chapter were too attenuated for the
exercise of specific jurisdiction; the local chapter’s
contact with state could not be imputed to the
national organization on an alter ego theory for
purposes

of general personal jurisdiction;

and

alleged contacts of the national organization with
the state were insufficient to establish general
jurisdiction). Cf. Acad, of Ambulatory Foot Surgery
v. Am. Podiatry Assoc., 516 F. Supp. 378, 381
(S.D.N.Y. 1981) (finding venue inappropriate in the
forum because the court could not attribute the
activities of
the separately incorporated New York chapter to the
national organization located in Washington, D.C.).
Plaintiffs conclusory allegations about the
connection between MOMs Club and its local chapter
in Olathe, Kansas, fail to establish the requisite
control to subject the national organization to
general personal jurisdiction. Plaintiff bears the

158

burden to establish personal jurisdiction, and he has
not met that burden here. The court thus concludes
that no personal jurisdiction exists over MOMs Club
in this forum. And, the court grants MOMs Club’s
Motion to Dismiss for this reason.
2. Defendant MOMs Club is not a state
actor, and thus cannot be liable for a claim
brought under 42 U.S.C. § 1983.
Even if the court could exercise personal
jurisdiction over MOMs Club, plaintiff fails to state a
claim against it because it is not a state actor.
“Section 1983[ ] liability attaches only to conduct
occurring ‘under color of law.’” Gallagher v. Neil
Young Freedom Concert, 49 F.3d 1442, 1447 (10th
Cir. 1995) (quoting 42 U.S.C. § 1983). So, “the only
proper defendants in a Section 1983 claim are those
who ‘represent [the state] in some capacity, whether
they act in accordance with their authority or misuse
it.’” Id. (quoting Natl Collegiate Athletic Ass’n v.
Tarkanian,

488 U.S.

179,

191

(1988)

(further

citations and internal quotation marks omitted)).
Section 1983’s requirement that a defendant act
“under color of state law” “is ‘a jurisdictional

159

requisite for a § 1983 action.’” Jojola v. Chavez, 55
F.3d 488, 492 (10th Cir. 1995) (quoting Polk Cty. v.
Dodson, 454 U.S. 312, 315 (1981)).
So, to state a viable § 1983 claim, a plaintiff
must allege sufficient facts demonstrating, plausibly,
that the private individual or entity’s conduct
allegedly causing a constitutional deprivation is
“fairly attributable to the state.” Scott v. Hern, 216
F.3d 897, 906 (10th Cir. 2000) (citations and internal
quotation marks omitted). The Tenth Circuit has
applied four different tests to determine whether a
private entity is subject to liability under § 1983 as a
state actor: the nexus test, the symbiotic relationship
test, the joint action test, and the public function
test. Gallagher, 49 F.3d at 1447.
The nexus test requires a “sufficiently close
nexus between the government and the challenged
conduct” and, in most cases, renders a state liable for
a private individual’s conduct “only when [the State]
has exercised coercive power or has provided such
significant encouragement, either overt or covert,
that the choice must in law be deemed to be that of
the State.” Id. at 1448 (citations and internal

160

quotation

marks

omitted).

The

symbiotic

relationship
test asks whether the state “has so far insinuated
itself into a position of interdependence with a
private party that it must be recognized as a joint
participant in the challenged activity.” Id. at 1451
(citations and internal quotation marks omitted).
The joint action test requires courts to
“examine whether state officials and private parties
have acted in concert in effecting a particular
deprivation of constitutional rights.” Id. at 1453
(citations omitted). Finally, the public function test
asks whether the challenged action is “a function
traditionally exclusively reserved to the State.” Id. at
1456

(citations

and

internal

quotation

marks

omitted).
Plaintiff has alleged no facts in his Second
Amended Complaint to state an actionable claim
against MOMs Club for conduct that was “fairly
attributable to the state” under any of these tests.
Plaintiff

alleges

that

MOMs

Club

is

an

international community for ‘Stay at home moms.”’
Doc. 90 at 21. He concedes that MOMs Club is not a

161

state actor by alleging that it “is not a legal agency
to remove children from the home of any residence.”
Id. Plaintiffs Second Amended Complaint never
even asserts that MOMs Club acted under color of
state law. Although plaintiff accuses members of the
local chapter of hiding plaintiffs children and
endangering their safety, he never asserts any facts
that

MOMs

Club—the

national

organization—

committed these acts, much less any facts that
MOMs Club acted jointly or in some relationship
with the State to support a claim under § 1983.
Without

such

allegations,

plaintiffs

Second

Amended Complaint fails to allege an actionable §
1983 claim against MOMs Club. Thus, even if
personal jurisdiction existed in Kansas over MOMs
Club, the court still
would dismiss plaintiffs claims against it.
D. Defendant Audra Weaver’s Motion to
Dismiss
Plaintiffs Second Amended Complaint asserts
claims against Audra Weaver under 42 U.S.C. §
1983, for alleged violations of plaintiffs rights under
the

Fourth

Amendment

162

and

the

Fourteenth

Amendment’s Due Process Clause. Doc. 90 at 20.
Like MOMs Club, Ms. Weaver moves to dismiss
plaintiffs claims because she is not a state actor and
thus cannot be held liable under § 1983.
Plaintiffs Second Amended Complaint alleges
that Audra Weaver is President of MOMs Club of
Olathe

East.

Plaintiff accuses Ms.

Weaver of

assisting Ms. Gorski with hiding his children from
him. He claims Ms. Weaver knew where his children
were located and refused to provide him that
information. He also contends that Ms. Weaver
endangered his children’s safety by failing to disclose
their location. Plaintiffs Second Amended Complaint
never asserts that Ms. Weaver is a state actor. It
also never asserts any facts showing that Ms.
Weaver’s conduct is “fairly attributable to the state”
to support a viable § 1983 claim. Scott, 216 F.3d at
906. Plaintiff alleges no facts establishing any
connection between the State and Ms. Weaver or
other facts sufficient to subject her to § 1983 liability
as a state actor under the nexus text,symbiotic test,
or joint action test. See Gallagher, 49 F.3d at 1447.
Plaintiff also never asserts any facts showing that

163

Ms. Weaver’s actions are “function[s] traditionally
exclusively reserved
to the State” to satisfy the public function test and
subject Ms. Weaver to § 1983 liability. Id. at 1456
(citations and internal quotation marks omitted).
Indeed, plaintiff concedes that MOMs Club is “is not
a legal agency to remove children from the home of
any residence.” Doc. 90 at 21. Thus, Ms. Weaver, as
President of MOMs Club, was not performing any
state functions because, plaintiff contends, Ms.
Weaver’s actions involved the illegal removal of
children—not something that is a traditional and
exclusive function of the State.
Plaintiff submitted an Opposition to Ms.
Weaver’s motion.6 Doc.

101. In it, he asserts

conclusory allegations against Ms. Weaver and the
MOMs Club of Olathe East of “working conjointly,”
“working] collaboratively,” and having a “connection
to the governmental actors and through their actions
with state actors.” Id. at 3, 4, 5. These allegations
appear nowhere in plaintiffs Second Amended
Complaint. So, the court cannot consider them on a
motion to dismiss. See Jojola, 55 F.3d at 494

164

(explaining that when “determining whether to
grant a motion to dismiss, the district court . . . [is]
limited to assessing the legal sufficiency of the
allegations contained within the four corners of the
complaint”). And, even so, plaintiffs conclusory
allegations

fail

to

establish

plausible

factual

allegations of state action to subject Ms. Weaver to §
1983 liability. See Wastach Equal, v. Alta Ski Lifts
Co., 820 F.3d 381, 386 (10th Cir. 2016) (explaining
that “[tlhreadbare recitals of the elements of a cause
of action, supported

6 Ms. Weaver asks the court to disregard plaintiffs Opposition
because it was not timely filed. Because plaintiffs Opposition
does not influence the disposition of Ms. Weaver’s motion, the
court exercises its discretion to consider it, even if it was
untimely.

by mere conclusory statements, do not suffice” to
state a claim for relief); see also Banks v.Geary Cty.
Dist. Ct., 645 F. App’x 713, 716-18 (10th Cir. 2016)
(affirming dismissal of a pro se plaintiffs § 1983
claim and explaining that “[clonclusory allegations
are not enough to withstand a motion to dismiss”

165

and “courts will not supply additional factual
allegations to round out a plaintiffs complaint or
construct a legal theory on a plaintiffs behalf’
(citations and internal quotation marks omitted)).
For these reasons, plaintiffs Second Amended
Complaint fails to assert a viable § 1983 claim
against Ms. Weaver. The court thus grants Ms.
Weaver’s Motion to Dismiss.
E. Defendant Krissy Gorski’s Motion to
Dismiss
Plaintiffs

Second

Amended

Complaint

asserts

claims against Krissy Gorski under 8 U.S.C. §
1324c(a), 18 U.S.C. §§ 875, 1038, and Kan. Stat.
Ann. §§ 21-6103(l)(a)(b), 38- 2223(e). Doc. 90 at 18.
It also alleges that Ms. Gorski violated plaintiffs
Fourth Amendment rights. Id. Ms. Gorski moves to
dismiss plaintiffs claims against her under Fed. R.
Civ. P. 12(b)(1) for lack of subject matter jurisdiction
and under Fed. R. Civ. P. 12(b)(6) for failing to state
a claim.
Ms. Gorski’s motion also accuses plaintiff of
initiating vexatious litigation against her. She asks
the court to sanction plaintiff and prohibit him from

166

filing other lawsuits against her. In support of this
request,

Ms.

Gorski

asserts

that

plaintiff is

prohibited from contacting her by a court order and
that he is litigating this action only as a way of
harassing and humiliating her.
Ms.

Gorksi

accuses

plaintiff

of bizarre

behavior and hallucinations. She also contends that
plaintiff tricked her into marrying him in

a

ceremony that, she later learned was not legal, in an
attempt to “mislead [Ms. Gorski] into a polygamous
marriage”

that

involved

plaintiff

“try[ing]

to

impregnate his former wife, now his concubine, as
well as [Ms. Gorski], and others he could lure in as
well, as [the women] were to bore him male
children.” Doc. 98 at 4-5. Ms. Gorski believes that
plaintiff “intended to kill her and the children for a
life insurance payout.” Id. at 6. She believes so
because, she contends, plaintiff obtained a firearm
and attempted to place a
$250,000 life insurance policy on Ms. Gorksi. Ms.
Gorski also accuses defendant of threatening and
physically abusing her and her children.

167

Plaintiff has filed a 28-page opposition to Ms.
Gorski’s motion. Doc. 99. In it, plaintiff denies Ms.
Gorski’s allegations of abuse. He contends that
plaintiff has falsely accused him of abuse to receive
free housing, state assistance, and support from
agencies. Plaintiff asserts that the court entered the
no contact order to protect him because, he contends,
Ms. Gorski was stalking him. Plaintiff accuses Ms.
Gorski of having an extensive drug abuse and
criminal

history.

Plaintiff

contends

that

he

“rehabilitated” Ms. Gorski, and he denies that he
brought her into a polygamous relationship or that
he intended to kill her for an insurance payoff. Doc.
99 at 9. Plaintiff also reiterates his accusations that
Ms. Gorksi has abused her children. The court also
has reviewed various materials that plaintiff has
submitted to the court, although not relevant to the
pending motions to dismiss. Plaintiff contends these
materials support his allegations against Ms. Gorski
of making false abuse claims against him. These
materials include text messages and an audio file of
a telephone call between plaintiff and Ms. Gorski.

168

After

reviewing

the

parties’

competing

submissions, the court declines to weigh into their
highly contentious allegations and denials of abusive
behavior. Plaintiff and Ms. Gorski, it seems, have a
complicated and acrimonious history. The court need
not discuss their animosity toward each other.
Instead, the court can dismiss plaintiffs claims
against Ms. Gorski because they fail to state viable
and plausible claims recognized by our laws. And,
the court declines to sanction plaintiff on this record
of competing allegations.
Ms. Gorski asserts that plaintiff cannot bring
a claim against her for violations of plaintiffs Fourth
Amendment rights. Like the other defendants, Ms.
Gorski asserts that she is not state actor, and thus is
not subject to § 1983 liability for purportedly
violating plaintiffs constitutional rights. The court
agrees.

Plaintiffs

Second

Amended

Complaint

accuses Ms. Gorski of asserting false allegations
against him to various state agencies and conspiring
to deprive plaintiff of his parental rights. But it
never alleges that Ms. Gorksi is a state actor. It also
asserts no facts establishing any connection between

169

the State and Ms. Gorski or her actions sufficient to
subject her to § 1983 liability as a state actor under
any of the Tenth Circuit’s tests. See Gallagher, 49
F.3d at 1447.
Plaintiffs

Opposition

asserts

conclusory

allegations that Ms. Gorski “worked in conjunction”
and in a “collaborated team effort” with state actors.
Doc. 99 at 24. But, plaintiffs Second Amended
Complaint never asserts these allegations. Thus, the
court cannot consider them on a motion to dismiss.
See Jojola, 55 F.3d at 494. And, even if the court
considered them, plaintiffs conclusory allegations,
without sufficient factual support, fail to establish
plausible allegations of state action sufficient to
subject Ms. Gorski to § 1983 liability. SeeWastach
Equal., 820 F.3d at 386; see also Banks, 645 F. App’x
at 716-18. The court thus dismisses plaintiffs claims
for alleged constitutional violations against Ms.
Gorski.
Plaintiffs other statutory claims against Ms.
Gorski also fail to state a claim as a matter of law.
Plaintiff asserts claims under three federal criminal
statutes^ 8 U.S.C. § 1324c(a) and 18 U.S.C. §§ 875

170

and 1038. Section 1324c of Title 8 of the United
States Code prohibits any person from making or
using

fraudulent

documents

to

satisfy

the

requirements of or to obtain a benefit under the
Immigration and Nationality Act. 8 U.S.C. § 1324c.
Section 875 of Title 18 of the United States Code
prohibits

extortion

threats

using

interstate

communications. 18 U.S.C. § 875. Section 1038 of
Title 18 of the United States Code prohibits criminal
hoaxes and terrorist threats. 18 U.S.C. § 1038.
None of these federal criminal statutes confer
on plaintiff the right to assert a private cause of
action. See, e.g., Clements v. Chapman, 189 F. App’x
688, 692 (10th Cir. 2006) (holding that “none of the
criminal

statutes”

that

plaintiff cited

in

his

complaint—including 18 U.S.C. § 875—“provide for a
private cause of action”); Johnson v. Working Am.,
Inc., No. 1:12CV1505, 2012 WL 3074775, at *2 (N.D.
Ohio July 30, 2012) (finding that, as a private
citizen, the plaintiff had no authority to initiate a
federal criminal prosecution under 18 U.S.C. § 1038);
United States v. Richard Dattner Architects, 972 F.
Supp. 738, 747 (S.D.N.Y. 1997) (finding, in the

171

context of 8 U.S.C. § 1324c, that “plaintiff has no
standing to assert a claim under the INA because
the statute does not create a private right of action
to redress a violation” of that statute). Thus,
plaintiffs

claims

under

these

federal

criminal

statutes fail to state a claim for relief. See Clements,
198 F. App’x at 692 (affirming district court’s
dismissal of alleged violations of federal criminal
statutes because the statutes provided no private
cause of action).
Plaintiff also asserts claims against Ms.
Gorski under Kan. Stat. Ann. §§ 21'6103(l)(a)(b) and
38'2223(e). Kan. Stat. Ann. § 21-6103 makes a
criminal false communication a class A nonperson
misdemeanor. Kan. Stat. Ann. § 38-2223(e) makes
illegal the willful and knowing failure to make a
mandatory report of child abuse, establishing a class
B misdemeanor. Neither statute provides that a
private litigant may assert a civil cause of action
under these criminal statutes. And plaintiff fails to
show that the Kansas legislature intended to include
a private right of action when it enacted these
criminal statutes. See Brooks v. Sauceda, 85 F.

172

Supp. 2d 1115,1128 (D. Kan. 2000) (dismissing
plaintiffs claims for violation of Kansas criminal
statutes because plaintiff “does not show that the
legislature intended to grant him a private cause of
action for the violations of the citied criminal
statutes”). Plaintiff thus fails to state a claim under
either Kan. Stat. Ann. § 21-6103 or § 38‘2223(e).
And, so, the court grants Ms. Gorski’s Motion to
Dismiss plaintiffs claims against her. The court
declines,

however,

to

impose

the

requested

sanctions.
V. Conclusion
For the above reasons, the court grants each
of the pending motions to dismiss. Plaintiffs Second
Amended Complaint fails to assert viable claims
against these five defendants because either no
subject matter or personal jurisdiction exists or the
claims fail to state a claim for relief as a matter of
law. The operative Complaint is plaintiffs third
attempt

at

asserting

claims

against

these

defendants. The court finds no reason to provide him
another opportunity to amend his allegations when
he has had ample opportunity to do so and his

173

revised pleading still fails to state claims against
these defendants as a matter of law.

IT IS THEREFORE ORDERED BY THE
COURT THAT defendant State of Kansas’ Motion to
Dismiss (Doc. 91) is granted.
IT IS FURTHER ORDERED THAT defendant
MOMS Club’s Motion to Dismiss (Doc. 93) is
granted.
IT IS FURTHER ORDERED THAT defendant
Audra Weaver’s Motion to Dismiss (Doc. 94) is
granted.
IT IS FURTHER ORDERED THAT defendant
Kansas Department for Children and Families’
Motion to Dismiss (Doc. 95) is granted.
IT IS FURTHER ORDERED THAT defendant
Krissy Gorski’s Motion to Dismiss (Doc. 98) is
granted.
IT IS FURTHER ORDERED THAT defendant
MOMS Club’s Motion to Strike (Doc. 102) is denied.
IT IS FURTHER ORDERED THAT defendant
Kansas Department for Children and Families’
Motion to Dismiss (Doc. 9), defendant State of
Kansas’ Motion to Dismiss (Doc. 28), defendant

174

Audra Weaver’s Motion to Dismiss

(Doc.

45),

defendant State of Kansas’ Motion to Dismiss (Doc.
46), defendant MOMS Club’s Motion to Dismiss
(Doc. 64), and defendant Kansas Department for
Children and Families’ Motion to Dismiss (Doc. 68)
are denied as moot.
IT IS SO ORDERED.
Dated this 28th day of March, 2017, at Topeka,
Kansas.
a/ Daniel D. Crabtree
Daniel D. Crabtree
United States District Judge

175

APPENDIX 7
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
JOREL SHOPHAR,
Plaintiff,
v.
Case No. 16-CV-4043-DDC-KGS
STATE OF KANSAS, et al.,
Defendants.
MEMORANDUM AND ORDER
Pro se plaintiff Jorel D. Shophar brings this
action against the mother of his two children,
various state and local agencies, and individuals
who, he contends, have contrived a false campaign
against him and conspired to terminate his parental
rights. Generally, plaintiff alleges that defendants
discriminated

against

him

and

violated

his

constitutional and civil rights when his children
were placed in the temporary custody of the State of
Kansas in September 2015 and, later, placed in their
mother’s custody. Plaintiff asserts claims under 42
U.S.C. §§ 1983 and 1985 and various federal and
Kansas criminal statutes.

176

On March 23, 2017, the court dismissed five of
the seven defendants named in plaintiffs lawsuit
because the court either lacked subject matter
jurisdiction over plaintiffs claims or plaintiffs
claims failed to state a claim for relief against those
five defendants. Doc. 111. As the court noted in its
March 23, 2017 Memorandum and Order, defendant
Teena Wilkie never had answered plaintiffs Second
Amended Complaint—the operative pleading in the
case. Id. at 1 n.l. On March 24, 2017, Ms. Wilkie
filed a Motion for Leave to File Out of Time. Doc.
113. It asks the court for leave to respond to
plaintiffs Second Amended Complaint out of time
because, as a pro se litigant, she did not understand
that she was required to file a response. Ms. Wilkie
also has filed a Motion to Dismiss. Doc. 114. For the
reasons explained below, the court grants both of
Ms. Wilkie’s motions.
I. Pro Se Litigant Standard
Because plaintiff and Ms. Wilkie proceed pro
se, the court must construe their filings liberally and
hold them to a less stringent standard than formal
pleadings drafted by attorneys. James v. Wadas, 724

177

F.3d 1312, 1315 (10th Cir. 2013); Hall v. Bellmon,
935 F.2d 1106, 1110 (10th Cir. 1991). This liberal
standard requires the court to construe a pro se
litigant’s pleadings as ones stating a valid claim if a
reasonable reading of them allows the court to do so
“despite the plaintiffs failure to cite proper legal
authority, his confusion of various legal theories, his
poor syntax and sentence construction,

or his

unfamiliarity with pleading requirements.” Hall, 935
F.2d at 1110.
But, at the same time, the court will not serve
as a pro se litigant’s advocate. James, 724
F.3d at 1315. The court “cannot take on the
responsibility of serving as the litigant’s attorney in
constructing arguments and searching the record.”
Garrett v. Selby Connor Maddux & Janer,425 F.3d
836, 840 (10th Cir. 2005). Also, the requirement that
the court must read a pro se plaintiffs pleadings
broadly “does not relieve the plaintiff of the burden
of alleging sufficient facts on which a recognized
legal claim could be based.” Hall, 935 F.2d at 1110.
And, a

178

plaintiffs pro se status does not excuse him or her
from complying with federal and local rules. See
Nielsen v. Price, 17 F.3d 1276, 1277 (10th Cir. 1994)
(“This court has repeatedly insisted that pro se
parties follow the same rules of procedure that
govern other litigants.” (citations and internal
quotation marks omitted)).
II. Ms. Wilkie’s Motion for Leave to File Out of

Time
On July 5,

2016, plaintiff filed a First

Amended Complaint naming Ms. Wilkie as a
defendant. Doc. 31. Ms. Wilkie filed a “Response” to
plaintiffs First Amended Complaint. Doc. 49. The
Clerk docketed the Response as an Answer. But, the
Response includes a request that the court dismiss
plaintiffs claims for failing to state a claim upon
which relief may be granted. Id. at 3. On December
2, 2016, plaintiff filed a Second Amended Complaint.
Doc. 90.
This amended pleading also names Ms. Wilkie
as a defendant. Plaintiff certified that he served a
copy the Second Amended Complaint on Ms. Wilkie
by U.S. Mail. Id. at 23.

179

The Federal Rules required Ms. Wilkie to
respond to plaintiffs Second Amended Complaint
within 14 days after service. Fed. R. Civ. P. 15(a)(3).
Ms. Wilkie never responded within the required
time. On March 24, 2017, Ms. Wilkie filed a Motion
for Leave to File Out of Time, asking for leave to file
her

response

to

plaintiffs

Second

Amended

Complaint out of time. Doc. 113. When Ms. Wilkie
filed her Motion for Leave to File Out of Time, she
also filed a “Motion to Dismiss All Claims Against
Teena Wilkie.” Doc. 114. This motion asks the court
to dismiss plaintiffs Second Amended Complaint
under Fed. R. Civ. P. 12(b)(1) for lack of subject
matter jurisdiction and Fed. R. Civ. P. 12(b)(6) for
failing to state a claim upon which relief can
be granted. Id. at 1.
Ms. Wilkie states in her Motion for Leave that
she is a pro se litigant. Ms. Wilkie also explains that
she did not understand that she was required to
respond to plaintiffs Second Amended Complaint.
She notes that she responded timely to plaintiffs
First Amended Complaint. And, because plaintiffs
allegations against Ms. Wilkie in the First Amended

180

Complaint did not differ from his allegations in the
Second Amended Complaint, Ms. Wilkie believed
that no other response was required.
Plaintiff never has responded to Ms. Wilkie’s
Motion for Leave to File Out of Time, and the time
for doing so has passed. Under D. Kan. Rule 7.4(b), a
party “who fails to file a responsive brief or
memorandum within the time specified in D. Kan.
Rule 6.1(d) waives the right to later file such brief or
memorandum”

unless

there

is

a

showing

of

excusable neglect. This rule also provides “[i]f a
responsive brief or memorandum is not filed within
the D. Kan. Rule 6.1(d) time requirements, the court
will

consider

and

decide

the

motion

as

an

uncontested motion. Ordinarily, the court will grant
the motion without further notice.” D. Kan. Rule
7.4(b). Because plaintiff never has responded to Ms.
Wilkie’s Motion for Leave to File Out of Time, the
court grants the motion. The court also grants the
motion because

Ms.

Wilkie

has

satisfied

the

requirements for obtaining leave to file out of time.
A court may extend the time to act after a
deadline has passed if the party “failed to act

181

because of excusable neglect.” Fed. R. Civ. P.
6(b)(1)(B); D. Kan. Rule 6.1(a)(4). Excusable neglect
“is a somewhat elastic concept and is not limited
strictly to omissions caused by circumstances beyond
the control of the movant.” Pioneer Inv. Servs. Co. v.
Brunswick Assocs. L.P., 507 U.S. 380, 392 (1993)
(citations and internal quotation marks omitted).
But, a party’s “inadvertence, ignorance of the rules,
or mistakes concerning the rules do not usually
constitute ‘excusable’ neglect.” Id.
The determination of whether neglect is
excusable “is at bottom an equitable one, taking
account of all relevant circumstances surrounding
the party’s omission.” Id. at 395. The factors to
consider when making this determination include
“the danger of prejudice to the [opposing party], the
length of the delay and its potential impact on
judicial proceedings, the reason for the delay,
including whether it was within the reasonable
control of the movant, and whether the movant acted
in good faith.” Id. “[P]erhaps the most important
single factor” to determine whether neglect is
excusable is “[f]ault in the delay.” Jennings v. Rivers,

182

394 F.3d 850,

857 (10th Cir. 2005) (citations

omitted). “An additional consideration is whether the
moving party’s underlying claim is meritorious.” Id.
(citing Cessna Fin. Corp. v. Bielenberg Masonry
Contracting, Inc., 715 F.2d 1442, 1444-45 (10th Cir.
1983) (discussing, in the context of a motion to set
aside a default judgment, the need to avoid frivolous
litigation)). Though these factors guide the court’s
inquiry,

the

excusable-neglect

determination,

ultimately, is an equitable decision that’s committed
to the court’s sound discretion. See Bishop v.
Corsentino, 371 F.3d 1203, 1206 (10th Cir. 2004)
(reviewing excusable-neglect decision under abuse of
discretion standard).
After considering the relevant factors, the
court exercises its discretion to grant Ms. Wilkie
leave to file her response to plaintiffs Second
Amended Complaint out of time. Ms. Wilkie acted in
good faith: As a pro se litigant, she did not
understand that she must file

a response to

plaintiffs Second Amended Complaint after she
already had responded to his

First Amended

Complaint. And, the day after the court pointed out

183

\

Ms. Wilkie’s omission in its March 23,

2017

Memorandum and Order (Doc. Ill at 1 n.2), Ms.
Wilkie corrected her oversight by filing her Motion
for Leave and her Motion to Dismiss. Docs. 113, 114.
Although Ms. Wilkie’s status as a pro se litigant does
not excuse her from complying with the court’s rules,
Nielsen, 17 F.3d at 1277, her ignorance of the rules
is probative of her good faith for failing to file a
timely response, see Cooper v. Regent Asset Mgmt.
Solutions-Kansas, LLC, No. 10-2634- JAR-KGG,
2012 WL 3238139, at *3 (D. Kan. Aug. 7, 2012)
(holding that pro se defendants had shown excusable
neglect when they failed to answer because they
mistakenly believed an answer was not required).
The court also finds that granting the motion
will not prejudice plaintiff or negatively affect the
judicial proceedings. Although plaintiff filed the case
over a year ago, the court has not entered a
scheduling order yet because defendants have moved
to dismiss each amended pleading that plaintiff has
filed. So, the court has established no deadlines,
including a trial date. Indeed, discovery has not even
commenced. So far, the case has not required

184

significant litigation efforts by plaintiff—other than
responding to the several motions to dismiss. The
court has granted those motions to dismiss either
because the court lacked subject matter jurisdiction
or plaintiffs claims fail to state a claim for relief.
And, for many of the same reasons, plaintiffs Second
Amended Complaint also fails to state a claim
against Ms. Wilkie, as the court explains below.
Under these circumstances, the court finds it
equitable to grant Ms. Wilkie’s Motion for Leave to
File Out of Time.
III. Ms. Wilkie’s Motion to Dismiss
The court now turns to Ms. Wilkie’s Motion to
Dismiss. Doc. 114. In it, she asks the court to dismiss
plaintiffs Second Amended Complaint against her
because the court lacks subject matter jurisdiction
under Fed. R. Civ. P. 12(b)(1) and plaintiff fails to
state a claim upon which relief can be granted under
Fed.

R.

Civ.

P.

12(b)(6).

Plaintiff never

has

responded to Ms. Wilkie’s Motion to Dismiss, and the
time for doing so has passed. D. Kan. Rule 7.4(b)
thus allows the court to “consider and decide the
motion as an uncontested motion. Ordinarily, the

185

court will grant the motion without further notice.”
D. Kan. Rule 7.4(b). Because plaintiff never has
responded to Ms. Wilkie’s Motion to Dismiss, the
court grants the motion. The court also grants the
motion on the merits. The court explains why below.

A. Factual Background
The following facts come from plaintiffs
Second Amended Complaint (Doc. 90) and are
viewed in the light most favorable to him. See, e.g,
S.E.C. v. Shields, 744 F.3d 633, 640 (10th Cir. 2014)
(explaining that on a Rule 12(b)(6) motion, the court
“accept[s] as true all wellpleaded factual allegations
in the complaint and view[s] them in the light most
favorable to the [plaintiff]” (citation and internal
quotation marks omitted)). The court also construes
plaintiffs allegations liberally because he proceeds
pro se.
Plaintiff and defendant Krissy Gorski had two
children together. On August 12, 2015, Ms. Gorski
took the children away from plaintiff. Ms. Gorski
also reported that plaintiff was physically abusing
her and the children to various agencies, including

186

the Olathe Police Department, the Johnson County
District Court, and the Department for Children and
Families (“DCF”). Plaintiff asserts that Ms. Gorski’s
abuse claims are false.
Plaintiff accuses defendant Teena Wilkie of
hiding the children in her home while she and Ms.
Gorski contrived the false abuse allegations. Plaintiff
asserts that Ms. Wilkie helped Ms. Gorski promote
her false allegations of domestic abuse so that Ms.
Gorski could extort money from the public.
In September 2015, the Johnson County
District Court placed the two children into DCF
custody. Plaintiff alleges that the judge based the
decision to remove the children from their parents’
custody on false evidence submitted by Ms. Gorski.
Also, plaintiff claims that the state court placed the
children in Ms. Wilkie’s temporary custody. Plaintiff
claims that Ms. Wilkie is an unlicensed foster parent
who helped Ms. Gorski abuse drugs. Plaintiff also
contends that Ms.Wilkie refused to allow plaintiff to
see or talk to his children, but permitted Ms. Gorski
to visit the children in her home each day.

187

Plaintiff also accuses Ms. Wilkie of coming to
his home and demanding painkillers for
Ms. Gorski. Plaintiff asserts that, when his wife,
Sasuah Shophar, refused to give Ms. Wilkie the
pain killers, Ms. Wilkie made a false claim against
Ms. Shophar with the Olathe Police Department.
Plaintiff describes this event as frightening to the
children in Ms. Shophar’s home.
Finally, plaintiff alleges that Ms. Wilkie’s
actions have deprived him of his children and
violated his constitutional rights. Plaintiff seeks
monetary damages of $350,000 from each defendant.
Doc. 90 at 22.
B. Legal Standard
1. Rule 12(b)(1) Motion to Dismiss for
Lack of Subject Matter Jurisdiction
“Federal

courts

are

courts

of

limited

jurisdiction and, as such, must have a statutory
basis to exercise jurisdiction.” Montoya v. Chao, 296
F.3d 952, 955 (10th Cir. 2002) (citation omitted).
Federal district courts have original jurisdiction of
all civil actions arising under the constitution, laws,
or treaties of the United States or where there is

188

diversity of citizenship. 28 U.S.C. § 1331; 28 U.S.C. §
1332. “A court lacking jurisdiction cannot render
judgment but must dismiss the cause at any stage of
the proceedings in which it becomes apparent that
jurisdiction is lacking.” Basso v. Utah Power & Light
Co., 495 F.2d 906, 909 (10th Cir. 1974) (citation
omitted). Since federal courts are ones with limited
subject matter jurisdiction, a presumption
against jurisdiction exists, and the party invoking
federal jurisdiction bears the burden to prove it
exists. Kokkonen v. Guardian Life Ins. Co. of Am.,
511 U.S. 375, 377 (1994).
Generally, a motion to dismiss for lack of
subject matter jurisdiction under Fed. R. Civ. P.
12(b)(1) takes one of two forms: a facial attack or a
factual attack. Holt v. United States, 46 F.3d 1000,
1002 (10th Cir. 1995). “First, a facial attack on the
complaint’s

allegations

as

jurisdiction

questions

the

to

subject

sufficiency

matter
of

the

complaint. In reviewing a facial attack on the
complaint,

a

district

court

must

accept

the

allegations in the complaint as true.” Id. (citing Ohio

189

Natl Life Ins. Co. v. United States, 922 F.2d 320,
325 (6th Cir. 1990)) (internal citations omitted).
“Second, a party may go beyond allegations
contained in the complaint and challenge the facts
upon which subject matter jurisdiction depends.
When reviewing a factual attack on subject matter
jurisdiction, a district court may not presume the
truthfulness of the complaint’s factual allegations. A
court has wide discretion to allow affidavits, other
documents, and [to conduct] a limited evidentiary
hearing to resolve disputed jurisdictional facts under
Rule 12(b)(1).” Id. at 1003 (citations omitted); Los
Alamos Study Grp. v. U.S. Dep’t ofEnergy, 692 F.3d
1057, 1063—64 (lOth Cir. 2012); see also Sizova v.
Natl Inst, of Standards & Tech., 282 F.3d 1320,
1324—25 (10th Cir. 2002) (holding that a court must
convert a motion to dismiss to a motion for summary
judgment under Fed. R. Civ. P. 56 only when the
jurisdictional question is intertwined with the merits
of case).
2. Rule 12(b)(6) Motion to Dismiss for Failure
to State a Claim

190

factual support for these claims.’” Carter v. United
States, 667 F. Supp. 2d 1259, 1262 (D. Kan. 2009)
(quoting Ridge at Red Hawk, L.L.C. v. Schneider,
493 F.3d 1174, 1177 (10th Cir. 2007)).
Although the court must assume that the
factual allegations in the complaint are true, it is
“not bound to accept as true a legal conclusion
couched as a factual allegation.” Id. at 1263 (quoting
Iqbal, 556 U.S. at 678). “Threadbare recitals of the
elements of a cause of action, supported by mere
conclusory statements, do not suffice” to state a
claim for relief. Bixler v.Foster, 596 F.3d 751, 756
(10th Cir. 2010) (quoting Iqbal, 556 U.S. at 678).
When evaluating a motion to dismiss under
Fed. R. Civ. P. 12(b)(6), the court may consider not
only the complaint itself, but also attached exhibits
and documents incorporated into the complaint by
reference. Smith v. United States, 561 F.3d 1090,
1098 (10th Cir. 2009). A court “may consider
documents referred to in the complaint if the
documents are central to the plaintiff s claim and the
parties do not dispute the documents’ authenticity.”
Id. (quoting Alvarado v. KOB TV, L.L.C., 493 F.3d

192

1210, 1215 (10th Cir. 2007)) (internal quotation
marks omitted).
C. Analysis
Plaintiffs

Second

Amended

Complaint

asserts

claims against Ms. Wilkie under 42 U.S.C. § 1983,
for alleged violations of plaintiffs rights under the
Fourth

Amendment

and

the

Fourteenth

Amendment’s Due Process Clause. Doc. 90 at 21-22.
Plaintiff also
allegations

alleges

against

that

him

Ms.

violated

Wilkie’s
8

false

U.S.C.

§

1324c(a)(l), 18 U.S.C. § 875, 18 U.S.C. § 1038(a)(1),
and Kan. Stat. Ann. § 21-6103(l)(a)(b). Id. Ms.
Wilkie moves to dismiss all of plaintiffs claims
against her. The court first addresses plaintiffs §
1983 claims, and then considers plaintiffs federal
and state criminal statutory claims based on Ms.
Wilkie’s alleged false allegations.
1. Section 1983 Claims
Ms. Wilkie moves to dismiss plaintiffs claims based
on purported constitutional violations because she is
not a state actor and thus cannot be held liable
under § 1983. As described above, plaintiffs Second
Amended Complaint accuses Ms. Wilkie of hiding

193

plaintiffs children from him and assisting Ms.
Gorski with contriving false

abuse

against

Second Amended

him.

But,

plaintiffs

allegations

Complaint never asserts that Ms. Wilkie is a state
actor. This is a requirement for liability under §
1983.
“Section 1983[ ] liability attaches only to
conduct occurring ‘under color of law.’” Gallagher v.
Neil Young Freedom Concert, 49 F.3d 1442, 1447
(10th Cir. 1995) (quoting 42 U.S.C. § 1983). So, “the
only proper defendants in a Section 1983 claim are
those who ‘represent [the state] in some capacity,
whether they act in accordance with their authority
or misuse it.’” Id. (quoting Nat’l Collegiate Athletic
Ass’n v. Tarkanian, 488 U.S. 179, 191 (1988) (further
citations and internal quotation marks omitted)).
Section 1983’s requirement that a defendant act
“under color of state law” “is ‘a jurisdictional
requisite for a § 1983 action.’” Jojola v. Chavez, 55
F.3d 488, 492 (10th Cir. 1995) (quoting Polk Cty. v.
Dodson, 454 U.S. 312, 315 (1981)).
To state a viable § 1983 claim, a plaintiff must
allege sufficient facts demonstrating, plausibly, that

194

the private individual or entity’s conduct allegedly
causing

a constitutional

deprivation

is

“fairly

attributable to the state.” Scott v. Hern, 216 F.3d
897, 906 (10th Cir. 2000) (citations and internal
quotation marks omitted). The Tenth Circuit has
applied four tests to determine whether a private
entity is subject to liability under § 1983 as a state
actor: the nexus test, the symbiotic relationship test,
the joint action test, and the public function test.
Gallagher, 49 F.3d at 1447.
The nexus test requires a “sufficiently close
nexus between the government and the challenged
conduct” and, in most cases, renders a state liable for
a private individual’s conduct “only when [the State]
has exercised coercive power or has provided such
significant encouragement, either overt or covert,
that the choice must in law be deemed to be that of
the State.” Id. at 1448 (citations and internal
quotation

marks

omitted).

The

symbiotic

relationship
test asks whether the state “has so far insinuated
itself into a position of interdependence with a
private party that it must be recognized as a joint

195

participant in the challenged activity.” Id. at 1451
(citations and internal quotation marks omitted).
The joint action test requires courts to “examine
whether state officials and private parties have
acted in concert in effecting a particular deprivation
of constitutional rights.” Id. at

1453 (citations

omitted). Finally, the public function test asks
whether

the

challenged

action

is

“a

function

traditionally exclusively reserved to the State.” Id. at
1456

(citations

and

internal

quotation

marks

omitted).
Plaintiffs Second Amended never asserts any
facts showing that Ms. Wilkie’s conduct is “fairly
attributable to the state” to support a viable § 1983
claim. Scott, 216 F.3d at 906. Plaintiffs Second
Amended Complaint alleges that Ms. Wilkie is a
member of “Moms Club of Olathe East.” Doc. 90 at
21. Plaintiff describes the Moms Club as “an
international community for ‘Stay at home moms.’”
Id. Plaintiffs Second Amended Complaint never
asserts that either Ms. Wilkie or the Moms Club are
state actors or somehow acted under color of state
law. Plaintiffs Second Amended Complaint also

196

alleges no facts establishing any connection between
the State and Ms. Wilkie or other facts sufficient to
subject her to § 1983 liability as a state actor under
the nexus text, symbiotic test, or joint action test.
See Gallagher; 49 F.3d at 1447. And, plaintiff never
asserts any facts showing that Ms. Wilkie’s actions
are “function[s] traditionally exclusively reserved to
the State” to satisfy the public function test and
subject Ms. Wilkie to § 1983 liability. Id. at 1456
(citations and internal quotation marks omitted).
Indeed, plaintiff concedes that Moms Club is not a
state actor by alleging that it “is not a legal agency
to
remove children from the home of any residence.”
Doc. 90 at 21. Thus, as a member of the Moms Club,
Ms. Wilkie was not performing any state functions
because, plaintiff contends, Ms. Wilkie’s actions
involved

the

illegal

removal

of

children—not

something that is a traditional and exclusive
function of the State.
For these reasons, plaintiffs Second Amended
Complaint fails to assert a plausible § 1983 claim

197

against Ms. Wilkie. The court thus grants Ms.
Wilkie’s Motion to Dismiss plaintiffs § 1983 claims.

2. Violations of Federal Criminal Statutes
Plaintiffs Second Amended Complaint also asserts
claims

against Ms.

Wilkie under 8

U.S.C.

§

1324c(a)(l), 18 U.S.C. § 875, and 18 U.S.C. §
1038(a)(1). Doc. 90 at 21. These statutory claims fail
to state a claim against Ms. Wilkie as a matter of
law. Section 1324c(a)(l) of Title 8 of the United
States

Code

makes it unlawful for a person

knowingly to falsify documents to satisfy the
requirements of or to obtain a benefit under the
Immigration and Nationality Act (“INA”). 8 U.S.C. §
1324c(a)(l). Section 875 of Title 18 of the United
States

Code

prohibits

extortion

threats

using

interstate communications. 18 U.S.C. § 875. Section
1038 of Title 18 of the United States Code prohibits
criminal hoaxes and terrorist threats. 18 U.S.C. §
1038.
None of these federal criminal statutes give
plaintiff the right to assert a private cause of action.

198

See Clements v. Chapman, 189 F. App’x 688, 692
(10th Cir. 2006) (holding that “none of the criminal
statutes” that plaintiff cited in his complaint—
including 18 U.S.C. § 875—“provide for a private
cause of action”); see also Johnson v. Working Am.,
Inc., No. 1:12CV1505, 2012 WL 3074775, at *2 (N.D.
Ohio July 30, 2012) (finding that, as a private
citizen, the plaintiff had no authority to initiate a
federal criminal prosecution under 18 U.S.C. § 1038);
United States v. Richard Dattner Architects, 972 F.
Supp. 738, 747 (S.D.N.Y. 1997) (finding, in the
context of 8 U.S.C. § 1324c, that “plaintiff has no
standing to assert a claim under the INA because
the statute does not create a private right of action
to redress a violation” of that statute). Thus,
plaintiff s

claims

under

these

federal criminal

statutes fail to state a claim for relief. See Clements,
189 F. App’x at 692 (affirming district court’s
dismissal of alleged violations of federal criminal
statutes because the statutes provided no private
cause of action).

3. Violation of State Criminal Statute

199

Plaintiff s Second Amended Complaint also asserts a
claim against Ms. Wilkie under Kan. Stat. Ann. § 216103(l)(a)(b). Doc. 90 at 21-22. This Kansas law
makes a criminal false communication a class A
nonperson misdemeanor. This criminal statute does
not provide that a private litigant may assert a civil
cause of action under it. And, plaintiff fails to show
that the Kansas legislature intended to create a
private right of action when it enacted this criminal
statute. See Brooks v. Sauceda, 85 F. Supp. 2d 1115,
1128 (D. Kan. 2000) (dismissing plaintiffs claims for
violation

of Kansas

criminal

statutes

because

plaintiff “does not show that the legislature intended
to grant him a private cause of action for the
violations of the citied criminal statutes”). Plaintiff
thus fails to state a claim under Kan. Stat. Ann. §
21-6103. And so, the court dismisses this state
statutory claim against Ms. Wilkie.
One final note—the court does not construe
plaintiffs Second Amended Complaint to assert a
defamation claim under Kansas law against Ms.
Wilkie. Plaintiff lists his causes of action in the
caption of his Second Amended Complaint. Doc. 90

200

at 1. This list does not include a defamation claim
under Kansas law. Plaintiffs Second Amended
Complaint,

however,

accuses

Ms.

Wilkie

of

defamation several times, but alleges that the
purported defamation created a cause of action
under federal and state statutes. See, e.g., Doc. 90 at
22 (stating that Ms. Wilkie assisted Ms. Gorski “in
promoting a defamation ad against the Plaintiff’
which “is a ‘criminal false communication’ pursuant
to KSA 21'6103[ ](l)(a)(b) against the Plaintiff.”); id.
(stating that Ms. Wilkie made “a criminal false
communication which caused defamation to
[plaintiffs] character . . . violating Federal Law 8
U.S. Code §[]l324c(a)(l).”).
The

Second

Amended

Complaint

also

references a state court action that plaintiff calls “a
defamation suit filed against [Ms. Wilkie] in Third
Judicial Court Case: 2016-CV-00214.” Id. at 6. The
Third Judicial District Court in Shawnee County,
Kansas has a publicallyavailable online records
system. 1 A search of that database reveals that
plaintiff filed a state court lawsuit against Ms.
Wilkie and others in March 2016. Plaintiff alleged

201

many

claims

under

Kansas

law

including

defamation to character, defamation to business,
defamation to church, libel, and slander. Plaintiff
filed a Motion to Dismiss Without Prejudice in June
2016, and the court terminated the case in August
2016.
Under

these

circumstances,

the

court

concludes that plaintiff never intended to assert a
defamation claim under Kansas law in this federal
lawsuit. This Memorandum and Order thus has no
preclusive effect on any state law defamation claims
that plaintiff asserted in his state lawsuit and that
he asked for dismissal of without prejudice.

1

Third

Judicial

District,

Shawnee

County,

Kansas,

PublicAccess.at https://public.shawneecourt.org/
PublicA/access/?service=Public&fx=access&LSession=0A5FF63
105AC CA5F70F36B5F9CBEE9E6 (last visited May 23, 2017).

IV. Conclusion
For the above reasons, the court grants defendant
Teena Wilkie’s Motion to Dismiss. Plaintiffs Second
Amended Complaint fails to assert viable claims
against Ms. Wilkie because either no subject matter

202

jurisdiction exists or the claims fail to state a claim
for relief as a matter of law.

The operative

Complaint is plaintiffs third attempt at asserting
claims against Ms. Wilkie and others. The court
finds no reason to provide him another opportunity
to amend his allegations when he has had ample
opportunity to do so and his revised pleading still
fails to state claims against Ms. Wilkie as a matter
of law.
IT IS THEREFORE ORDERED BY THE
COURT THAT defendant Teena Wilkie’s
Motion for Leave to File Out of Time (Doc. 113) is
granted.
IT IS FURTHER ORDERED THAT defendant
Teena Wilkie’s Motion to Dismiss (Doc. 114) is
granted.
IT IS SO ORDERED.
Dated this 23rd day of May, 2017, at Topeka,
Kansas.
s/ Daniel D. Crabtree
Daniel D. Crabtree
United States District Judge

203

APPENDIX 8
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
JOREL SHOPHAR,
Plaintiff,
v.

Case No. 16CV-4043DDCKGS

STATE OF KANSAS, et al.,
Defendants.
MEMORANDUM AND ORDER
On May 23, 2017, the court issued a Show
Cause Order to plaintiff. Doc. 124. It explained that
plaintiff never had erved one of the defendants he
has named in this lawsuit—Moms Club of Olathe
East (“Olathe East”). The court thus considered
whether it should dismiss plaintiffs lawsuit against
Olathe East under Fed. R. Civ. P. 4(m), for failing to
effect service within 90 days of filing the complaint,
or grant plaintiff a mandatory or permissive
extension of time to serve this defendant. The court
concluded that plaintiff had failed to establish good

204

cause entitling him to a mandatory extension. And,
the court recognized that a permissive extension of
time to effect service is futile if plaintiff fails to state
a claim for relief against Olathe East.
The court explained that the 42 U.S.C. § 1983
claims that plaintiffs Second Amended Complaint
asserts against Olathe East appear to suffer from
the same deficiencies that led the court to dismiss
plaintiffs § 1983 claims against other defendants.
Specifically, the Second Amended Complaint never
alleges facts showing that Olathe East is a state
actor who one can hold liable under § 1983. See Scott
v. Hern, 216 F.3d 897, 906 (10th Cir. 2000)
(explaining that,to state a viable § 1983 claim
against a private individual, the individual’s alleged
conduct causing the constitutional deprivation must
be “fairly attributable to the state” (citations and
internal quotation marks omitted)).
The court thus ordered plaintiff to show cause
by June 6, 2017 why a permissive extension of time
to effect service on Olathe East is not futile when
plaintiffs Second Amended Complaint appears to
fail to state a claim for relief against this defendant

205

for the same reasons that the court already has
dismissed plaintiffs § 1983 claims against other
defendants in its March 28, 2017 Memorandum and
Order (Doc. 115) and its May 23, 2017 Memorandum
and Order (Doc. 123).
Plaintiff never responded to the Show Cause
Order, and the time for doing so has passed. Plaintiff
thus fails to show why the court should grant a
permissive extension of time to serve Olathe East.
Plaintiff also fails to explain why granting such an
extension is not futile when his Second Amended
Complaint fails to state a claim for relief against this
defendant.
Plaintiff filed this action pro se,i and so the
court must construe his pleadings liberally.
See Hall v. Bellmon, 935 F.2d 1106, 1110 n.3 (10th
Cir.

1991)

(explaining

that

“pro

se

litigant’s

pleadings are to be construed liberally and held to a
less

stringent standard than formal pleadings

drafted by lawyers[,]” but a court should not “assume
the role of advocate for the pro se litigant[,]” and a
pro se litigant’s “conclusory allegations without
supporting factual averments are insufficient to

206

state a claim on which relief can be based”). Even
affording plaintiff s Second Amended Complaint the
most liberal construction possible, the pleading
never asserts any facts showing that Olathe East’s
conduct is “fairly attributable to the state” to support
a viable § 1983 claim. Scott, 216 F.3d at 906. It never
alleges that Olathe East is a state actor or somehow
acted
under color of state law. It also alleges no facts
establishing any connection between the State

1 On June 5, 2017, an attorney filed a “Limited Entry of
Appearance” on behalf of plaintiff. Doc. 128. This attorney did
not file plaintiffs Second Amended Complaint. Plaintiff filed
that pleading pro se.

and Olathe East or other facts sufficient to subject it
to § 1983 liability as a state actor under the various
tests promulgated by the Tenth Circuit to establish
state action (i.e., the nexus text, symbiotic test, joint
action test, or public function test). See Gallagher v.
Neil Young Freedom Concert, 49 F.3d 1442, 1447,
1456 (10th Cir. 1995).

207

Indeed, plaintiff concedes that Olathe East is
not a state actor by alleging that it “is not a legal
agency to remove children from the home of any
residence.” Doc. 90 at 21. Thus, Olathe East never
was performing any state functions because, the
Second Amended Complaint contends, its actions
involved the illegal removal of children—something
that is not a function traditionally and exclusively
reserved to the State. For these reasons, plaintiffs
Second Amended

Complaint

fails

to

assert

a

plausible § 1983 claim against Olathe East.
The court thus concludes that a permissive
extension of time for plaintiff to serve Olathe East is
futile because, even though the court gave plaintiff
notice and an opportunity to clarify the basis for his
§ 1983 claims, his Second Amended Complaint fails
to state a claim for relief against this defendant. See
Quarles v. Williams, No. 04-210TJWL, 2004 WL
2378840, at *1, 3 (D. Kan. Oct. 21, 2004) (after
ordering plaintiff to show cause “why the court
should not exercise its discretion and decline to
extend the time to effect valid service of process and

208

consequently dismiss [the] case without prejudice
because it appears that plaintiffs complaint fails to
state a claim upon which relief can be granted and
therefore it would be futile to extend the time for
service” and after plaintiff responded to that show
cause order, the court still concluded that plaintiffs
complaint failed to state a claim upon which relief
could be granted so a permissive extension of time to
serve defendant was futile).
The court thus dismisses plaintiffs claims
against Olathe East without prejudice under Rule
4(m) because plaintiff has failed to serve Olathe East
within 90 days, plaintiff has failed to establish good
cause for the failure to serve this defendant so no
mandatory extension of the time for service is
required, and the court declines to exercise its
discretion to grant a permissive extension of time to
serve Olathe East because doing so is futile when
plaintiff s Second Amended Complaint fails to state a
plausible claim against Olathe East.

IT IS THEREFORE ORDERED THAT
defendant Moms Club of Olathe East is dismissed
from this action without prejudice under Fed. R. Civ.

209

}

P. 4(m) because plaintiff has failed to effect valid
service of process within 90 days of filing his
complaint against this defendant.
IT IS SO ORDERED.
Dated this 12th day of June, 2017, at Topeka,
Kansas.
a/ Daniel D. Crabtree
Daniel D. Crabtree
United States District Judge

210

